APPENDIX TABLE OF CONTENTS
Order of the Supreme Court of Texas Denying
Petition for Review (October 4, 2019) ................ 1a
Judgment of Court of Appeals Fifth District of
Texas at Dallas (November 19, 2018) ................ 2a
Memorandum Opinion of the Court of Appeals
Fifth District of Texas at Dallas
(November 19, 2018) .......................................... 4a
Plea Agreement Submitted in the United States
District Court for the Northern District of
Texas Dallas Division (March 6, 2017)............ 20a
Final Award of the International
Center for Dispute Resolution
(February 16, 2017) .......................................... 27a
Plaintiff’s Amended Motion to Vacate Arbitration
Award and Defendants’ Motion to Confirm
Arbitration Award—Transcript of Proceedings
—Relevant Excerpts (June 8, 2017) ................ 52a

United States of America v. ZTE

Criminal Information (March 7, 2017) ........... 67a

United States of America v. ZTE

Factual Resume (March 6, 2017) ..................... 71a

App.1a
ORDER OF THE SUPREME COURT OF TEXAS
DENYING PETITION FOR REVIEW
(OCTOBER 4, 2019)
SUPREME COURT OF TEXAS
________________________
UNIVERSAL TELEPHONE EXCHANGE, INC.
v.
ZTE CORPORATION AND ZTE USA, INC.
________________________
October 4, 2019, Order Pronounced
No. 19-0269
Prior History:
From Dallas County; 5th Court of Appeals District.
(05-17-00781-CV, SW3d,
2018 Tex.App. LEXIS 9436, 11-19-18 [*1]).
Notice: Decision Without Published Opinion
Petition for Review Denied.

App.2a
JUDGMENT OF COURT OF APPEALS
FIFTH DISTRICT OF TEXAS AT DALLAS
(NOVEMBER 19, 2018)
COURT OF APPEALS OF TEXAS
FIFTH DISTRICT, DALLAS
________________________
ZTE CORPORATION AND ZTE USA, INC.,

Appellants,
v.
UNIVERSAL TELEPHONE EXCHANGE, INC.,

Appellee.

________________________
No. 05-17-00781-CV

On Appeal from the
44th Judicial District Court, Dallas County, Texas
Trial Court Cause No. DC-10-07052
Before: EVANS, MYERS and BROWN, Justices
In accordance with this Court’s opinion of this
date, the order of the trial court vacating the arbitrator’s
award is REVERSED and judgment is RENDERED
that the arbitrator’s final award entered in ICDR
Case No. 50-20-1200-0342 on or about February 16,
2017 be, and hereby is, CONFIRMED.
It is ORDERED that appellants ZTE Corporation
and ZTE USA, Inc. recover their costs of this appeal
from appellee Universal Telephone Exchange, Inc.

App.3a
Judgment entered this 19th day of November,
2018.

App.4a
MEMORANDUM OPINION OF
THE COURT OF APPEALS FIFTH
DISTRICT OF TEXAS AT DALLAS
(NOVEMBER 19, 2018)
COURT OF APPEALS OF TEXAS
FIFTH DISTRICT, DALLAS
________________________
ZTE CORPORATION AND ZTE USA, INC.,

Appellant,
v.
UNIVERSAL TELEPHONE EXCHANGE, INC.,

Appellee.

________________________
No. 05-17-00781-CV

On Appeal from the
44th Judicial District Court, Dallas County, Texas
Trial Court Cause No. DC-10-07052
Before: EVANS, MYERS and BROWN, Justices
Opinion by Justice Evans
This is an appeal from the trial court’s order
vacating an arbitration award in favor of ZTE Corporation and ZTE USA, Inc. (collectively ZTE) on
claims brought against them by Universal Telephone
Exchange, Inc. (UTE). In five issues, ZTE generally
asserts the trial court erred in vacating the award
and instead should have granted ZTE’s motion to

App.5a
confirm. We agree that none of the grounds raised by
UTE support vacation of the arbitration award.
Accordingly, we reverse the trial court’s order and
render judgment confirming the arbitrator’s final
award.
BACKGROUND
This dispute arises out of UTE’s efforts to obtain
a contract to install and integrate a comprehensive
and modern telecommunications system throughout
the country of Liberia after the country’s civil war
ended in 2003. The peace agreement ending the war
established a transitional government that, among
other things, sought to modernize Liberia’s telecommunication services. The full record of the arbitration proceeding is not before us and it was not before
the trial court. The following facts are largely from
the arbitrator’s final award and undisputed facts in
appellant’s brief.1
After the civil war ended, UTE began negotiating
with Liberia’s national telecommunications company,
the Liberian Telecommunications Corporation (LTC),
with respect to the project.2 In furtherance of UTE’s
efforts, UTE executed a non-disclosure agreement
(NDA) with ZTE USA to explore obtaining equipment
and financing from ZTE USA and/or its Chinese parent
1 In its brief, UTE acknowledges that the background facts and
history recounted in the arbitration award is basically correct.
Moreover, in civil cases, we accept as true the facts stated in appellant’s brief unless another party contradicts them. See Tex. R.
App. P. 38.1(g).
2 According to ZTE, LTC is the main telecommunications service
provider in Liberia.

App.6a
company, ZTE. The NDA contained an arbitration
clause providing all disputes arising from or in connection with the agreement “shall be submitted to
the American Arbitration Association in accordance
with its rules in force at the time of application for
arbitration.”
Although UTE and LTC initially reached an
agreement in principle to proceed as a joint venture,
open competitive bids were eventually solicited for
the project. Ultimately, UTE’s bid was ranked first
among the five qualified bids and LTC passed a resolution confirming UTE’s winning bid.3 After conducting
its own investigation, however, Liberia’s Contracts
and Monopolies Commission (CMC)4 recommended
Liberia’s president not approve the LTC/UTE contract because, among other things, UTE did not have
the financial resources nor the operational capacity to
execute the project. The president rejected the contract and UTE then sought relief from the Liberian
legislature and the Liberian courts in an effort to
obtain the necessary approval to finalize its winning
bid into a contract. However, UTE never consummated a final contract with LTC. UTE sued ZTE,
first in Liberia, and later in Dallas County district
court, alleging ZTE’s improper actions caused UTE to
lose the UTE/LTC contract.
The Dallas lawsuit was filed in June 2010. UTE
generally alleged ZTE interfered with its business
3 ZTE submitted its own competing bid for the project and was
ranked fifth out of the five qualified bidders by the LTC.
4 This commission was also established by the peace agreement
and was charged with reviewing all large public financial commitments.

App.7a
relationships in Liberia and had improperly used
UTE’s confidential information. The parties executed
a Rule 11 agreement in which they agreed to arbitrate
their dispute. Specifically, the Rule 11 agreement also
provided the case would be submitted to the “American Arbitration Association to be arbitrated in accordance with the terms of the parties’ non-disclosure agreement . . . and the rules in force at the time of the
application for arbitration.”
Upon receipt of the arbitration demand, the AAA
referred the matter to its international division (IDCR)
under the applicable International Dispute Resolution
Procedures (IDR Procedures). After an arbitrator was
appointed, the matter proceeded and an arbitration
hearing was held. Before the arbitrator issued his
final ruling, however, the parties agreed to his removal.
UTE then requested the IDCR appoint a threearbitrator panel to re-hear the case. ZTE objected and
the IDCR rejected UTE’s request. Raul Gonzalez,
former justice of the Texas Supreme Court and UTE’s
first choice for arbitrator, was appointed. After a twoweek hearing, the arbitrator issued his final award
denying all of UTE’s claims against ZTE. Among other
things, the arbitrator concluded UTE’s causes of action
were barred by limitations, that the project was a
high risk business venture, that UTE’s behavior was
not the “but for cause” of UTE losing the LTC contract,
and adverse inferences against ZTE were not warranted
because UTE failed to prove ZTE acted with intent to
conceal or intentionally destroyed evidence.
ZTE moved to confirm the award in the trial court,
and UTE filed a cross-motion to vacate the award, or
alternatively, conduct additional discovery based on
“new revelations” involving ZTE’s execution of a federal

App.8a
plea agreement nineteen days after the arbitrator
issued the final award in this case. The plea agreement
involved charges of obstruction of justice, intentional
destruction and manipulation of evidence, and lying
under oath to federal authorities with respect to
investigations of ZTE’s sale of telecommunications
and security equipment to Iran and North Korea in
violation of sanctions imposed against those countries. UTE based its motion to vacate on the following
grounds: (1) the AAA impermissibly denied the parties’
agreed arbitrator selection method; (2) the arbitrator
refused to draw an adverse inference from, or refused
to consider, UTE’s evidence that ZTE officers, employees, and witnesses were unavailable, concealed, or
were uncooperative; (3) ZTE’s federal plea agreement
established the arbitration award in this case was
obtained by corruption, fraud, or undue means, and
(4) the arbitrator exceeded his jurisdiction in ruling
UTE’s claims were barred by limitations. Ultimately,
the trial court denied ZTE’s motion to confirm and
granted UTE’s motion without stating a reason,
vacating the arbitration award and remanding the case
to the AAA. ZTE filed this appeal.
ANALYSIS
A.

Standard of Review

We review a trial court’s ruling confirming or
vacating an arbitration award de novo based on the
entire record before us. See Cambridge Legacy Grp.,
Inc. v. Jain, 407 S.W.3d 443, 447 (Tex. App.—Dallas
2013, pet. denied). An arbitration award has the same
force as a judgment of a court of last resort and is
presumed valid and entitled to great deference. Id.
Thus, we indulge all reasonable presumptions to up-

App.9a
hold the arbitration award and no presumptions are
indulged against it. See CVN Group, Inc. v. Delgado,
95 S.W.3d 234, 238 (Tex. 2002). A party seeking to
vacate an arbitration award bears the burden of
presenting a record that establishes its grounds for
vacating the award. Statewide Remodeling, Inc. v.
Williams, 244 S.W.3d 564, 568 (Tex. App.—Dallas 2008,
no pet.).
Because Texas law strongly favors arbitration,
judicial review of an award is extraordinarily narrow.
See Hoskins v. Hoskins, 497 S.W.3d 490, 494 (Tex.
2016) (quoting E. Tex. Salt Water Disposal Co. v.
Werline, 307 S.W.3d 267, 271 (Tex. 2010)). Under both
the Texas Arbitration Act (TAA) and the Federal
Arbitration Act (FAA), vacatur is limited to the
grounds expressly provided by statute and there are
no common-law grounds for vacating an arbitration
award. See Hall Street Assocs., L.L.C. v. Mattel, Inc.,
552 U.S. 576, 584 (2008) (FAA); Hoskins, 497 S.W.3d
at 494 (TAA). Unless the arbitration award is vacated,
modified, or corrected on a ground provided in the
arbitration acts, the trial court must grant a party’s
motion to confirm an award. See 9 U.S.C. § 9; Tex.
Civ. Prac. & Rem. Code Ann. § 171.087 (West 2011).
B.

Arbitrator Selection Rights

In its first issue, ZTE asserts the trial court
could not vacate the arbitration award based on UTE’s
contention that it was denied its arbitrator selection
rights under the parties’ agreement.5 UTE argues the
5 In its motion to vacate, UTE asserted the selection of a single
arbitrator pursuant to IDR Procedures violated subsection
10(a)(3) of the FAA and subsection 171.088(a)(3)(D) of the TAA
which generally permit vacatur of an award where arbitrators

App.10a
AAA “administrative diktat” transferring this case to
the ICDR unilaterally changed the arbitrator selection
process and prevented UTE from having a threearbitrator panel pursuant to the AAA Commercial Rules
as the parties agreed.6
Arbitrators have no independent source of jurisdiction aside from the parties’ consent and must be
selected pursuant to parties’ agreement. See Americo
Life, Inc. v. Myer, 440 S.W.3d 18, 21 (Tex. 2014). Here,
the parties’ arbitration agreement was contained in
the NDA UTE signed with ZTE, USA. The arbitration agreement merely provided that “disputes shall
be submitted to [the] American Arbitration Association in accordance with its rules in force at the time
of application for arbitration.” Moreover, after UTE
sued ZTE Corporation (a Chinese Company) and its
United States affiliate in Dallas County district
court, the parties entered into a rule 11 agreement to
submit the case to the AAA in accordance with the
rules in force at the time of the arbitration application. The parties also agreed that ZTE Corporation’s
special appearance “shall be decided by the arbitrator.”
On May 9, 2012 the parties received a letter from
the ICDR, a division of the AAA, stating the matter
would be administered under the IDR Procedures as
amended and in effect as of June 1, 2009. There is no
engaged in misbehavior or conducted the hearing in a manner
that substantially prejudiced a party’s rights. See 9 U.S.C. § 10
(a)(3); Tex. Civ. Prac. & Rem. Code Ann. § 171.088(a)(3)(D).
6 UTE argues that because the parties did not agree to the
number of arbitrators, it was entitled to a three-member tribunal
under the AAA Commercial Rules for large complex dispute
involving damages in excess of $1 million.

App.11a
indication that UTE objected to ICDR administration
or application of the IDR Procedures. Additionally, in
an August 20, 2012 letter to the parties, the ICDR
administrator confirmed the parties had agreed the
arbitration would be heard by one arbitrator that the
parties would mutually designate. It was not until
March 2016, after the parties agreed to remove the
first arbitrator from the case, that UTE first asked
the ICDR administrator to resume the arbitration with
a tribunal of three arbitrators.7 ZTE objected. The
case administrator denied UTE’s request concluding
the parties originally agreed to have the matter heard
by one arbitrator and absent any new mutual agreement, the matter would proceed with a single arbitrator as previously agreed by the parties.
The AAA arbitrator rule for large complex commercial cases provides:
(a) Large, Complex Commercial Cases shall be
heard and determined by either one or three
arbitrators, as may be agreed upon by the
parties. If the parties are unable to agree
upon the number of arbitrators and a claim
or counterclaim involves at least $1,000,000,
7 UTE specifically argued, “While the recent arbitration was
under the ICDR Rules, the decision to use those rules was unilaterally made by the AAA. As ZTE USA, Inc. is a New Jersey
company and UTE is a Texas company, the use of the AAA
Commercial Rules was expected. While UTE does not preclude
use of the ICDR Rules due to the international aspects of the
dispute, the use of the AAA Rules’ definition where the ICDR
Rules are silent is amply warranted in this matter. UTE’s
proposed constitution and qualifications of the new Tribunal
will minimize the potential for any successful challenge to an
Award.”

App.12a
then three arbitrator(s) shall hear and determine the case. If the parties are unable to
agree on the number of arbitrators and each
claim and counterclaim is less than $1,000,000,
then one arbitrator shall hear and determine
the case.
American Arbitration Ass’n, Commerical Arbitration
Rules and Mediation Procedures (Including Procedures
for Large, Complex Commercial Disputes) L-2(a)
(June 1, 2009).
The ICDR, on the other hand, is the international
division of the AAA and charged with the exclusive
administration of all of the AAA’s international matters.
According to IDR Procedures, where the parties have
provided for the arbitration of an international dispute
by the AAA without designating particular rules, the
arbitration shall take place in accordance with IDR
Procedures in effect at the date of the arbitration
commencement, subject to any written modifications
adopted by the parties. Int’l Dispute Resolution Procedures International Arbitration Rules Art. 1(1.)
(June 1, 2009). Under IDR Procedures, the parties
are free to adopt any mutually agreeable procedures
for appointing arbitrators, including whether to have
a sole arbitrator or a tribunal of three or more.
See id., Arts. 5 and 6. The IDR Procedures provide
that if the parties have not agreed on the number of
arbitrators, one arbitrator shall be appointed unless
the administrator determines in its discretion that
three arbitrators are appropriate because of the large
size, complexity or other circumstances of the case.
Id. at Art. 5.
UTE’s argument that it “expected” the AAA
Commercial Rules to apply because the arbitration

App.13a
agreement was executed between two domestic companies, completely ignores the fact that UTE brought
a Chinese company into a dispute that involved a contract that was to be performed in Liberia. Nothing in
the arbitration agreement itself expressly indicated
that the parties specifically agreed to be bound by
the AAA Commercial Rules for the selection process
or the number of arbitrators to hear the case. On the
contrary, the record reveals the only agreement the
parties had with respect to the selection and number
of arbitrators was that the matter would be heard by
one mutually selected arbitrator as evidenced by the
ICDR administrator’s August 20 letter. UTE sought
to change the parties’ agreement when it sought to
empanel a three-arbitrator tribunal after the first arbitrator was removed. But ZTE did not agree to UTE’s
modifications and the ICDR proceeded pursuant to the
parties’ original agreement. Because the parties initially
agreed to a one-arbitrator arbitration, UTE did not
establish it was denied its proper arbitrator selection
rights, and this ground will not support the trial
court’s order vacating the arbitration award.
In reaching our conclusion we necessarily reject
UTE’s reliance on Americo Life as inapposite. There,
the supreme court held that the party could not be
bound by AAA rules requiring impartiality of arbitrators when that altered the express terms of the
parties’ agreement which allowed each party to select
an arbitrator and did not require impartiality as an
arbitrator qualification. Americo Life, 440 S.W.3d at
24–25. There is nothing in the record before us to
suggest that the parties expressly agreed to a threearbitrator tribunal or that the arbitration would be

App.14a
conducted pursuant to the AAA procedures for large
complex commercial disputes.
C.

Fraud and Undue Means

In its second issue, ZTE contends the trial court
erred in vacating the award based on UTE’s assertion
that the award was obtained by fraud or undue
means.8 See 9 U.S.C. § 10(a)(1); Tex. Civ. Prac. & Rem.
Code Ann. § 171.088(a)(1). UTE claims the trial court
properly vacated the award on this ground because
ZTE engaged in immoral, illegal, or bad faith conduct
during the arbitration through its obstructive and
dishonest behavior and as further evidenced by the
federal plea agreement and related documents it
executed nineteen days after the issuance of the
arbitrator’s final award. UTE contends ZTE’s obstructive and dishonest behavior during the arbitration
and ZTE’s failure to disclose the criminal activity
that was the subject of plea agreement “could have
had the impact of preventing the arbitrator’s proper
evaluation of every aspect of ZTE’s defenses and
UTE’s claims.” Specifically, it suggests that had
ZTE disclosed its negotiations with the government
regarding the plea agreement and the nature of
ZTE’s misconduct in the federal case involving the
sale of goods to Iran and North Korea, it would have
influenced the arbitrator’s assessment of ZTE’s

8 Both the FAA and TAA also authorize vacatur for an award
procured by corruption. See 9 U.S.C. § 10(a)(1); Tex. Civ. Prac.
& Rem. Code Ann. § 171.088(a)(1). However, in its appellate
brief UTE states there is no allegation of corruption by the
arbitrator in this case and UTE instead “asserts and focuses
upon ‘fraud’ and ‘undue means.’”

App.15a
credibility and the need for drawing adverse inferences
against ZTE during the arbitration with UTE.
“Undue means” has been defined as immoral,
illegal or bad faith conduct.” See Las Palmas Med.
Ctr. v. Moore, 349 S.W.3d 57, 69 (Tex. App.—El Paso
2010, pet. denied); A.G. Edwards & Sons. Inc. v. McCollough, 967 F.2d 1401, 1403–04 (9th Cir. 1992). UTE
acknowledges that a petitioner seeking to vacate an
award procured by fraud or undue means must show
the alleged misconduct was material to an issue in
the arbitration. See Odeon Capital Grp. LLC v. Van
Alstyne, 864 F.3d 191, 196–97 (2nd Cir. 2017).
After reviewing the record before us, we cannot
conclude UTE met its burden to establish ZTE obtained
its award based on conduct that was immoral, illegal,
or in bad faith. The conduct that is the subject of the
plea agreement, while involving ZTE high officials,
was not related to the subject matter of the arbitration.
In fact, UTE has failed to show that ZTE had any duty
to disclose the plea deal negotiations of the unrelated
matter. In any event, UTE acknowledges in its brief
that despite evidence introduced at the arbitration
that ZTE had actually bribed Liberian officials as part
of its underlying claims, the arbitrator still found that
there was no evidence that ZTE intentionally withheld
or destroyed information. Importantly, the plea agreement and other documents on which UTE now relies
likewise do not show that ZTE intentionally withheld
or destroyed information pertaining to the transactions involved the arbitration.
As the party seeking to vacate the arbitration
award, UTE had the burden to bring forth a complete
record establishing its basis for vacation. See Statewide
Remodeling, 244 S.W.3d at 568. Where, as here, there

App.16a
is no transcription or record of the arbitration hearing,
UTE cannot establish the arbitration award was
procured by immoral, illegal, or bad faith conduct.
See id. Without a record of what was presented to the
arbitrator, it is impossible to determine whether the
plea agreement and related documents would have been
material to the arbitrator’s determination. We therefore
conclude that UTE failed to meet its burden to show
the arbitration award should be vacated on the grounds
of fraud or undue means.
In its third issue, ZTE argues that the trial court
could not properly vacate the award based UTE’s
allegations of arbitrator misconduct. We agree. To
constitute misconduct requiring vacation of an award,
the act complained of must be more than an error of
law and must so prejudice the rights of a party such
that it denies the party a fundamentally fair hearing.
See Petrobras Am., Inc. v. Astra Oil Trading NV, No.
01-11-00073-CV, 2012 WL 1068311, at *12 (Tex. App.—
Houston [1st Dist.] March 29, 2012, no pet.) (mem. op.).
In the trial court and on appeal, UTE contends
the arbitrator refused to consider relevant and material
evidence and also refused to draw adverse inferences
“from the lack of evidence ZTE asserted was so
conveniently unavailable.” UTE also asserts it
presented evidence that documents and deposition
testimony requested in discovery was not produced
by, had been destroyed by or deliberately concealed
by, ZTE. Again, with no record of the arbitration
hearing proceedings before us, we do not know what
evidence UTE presented to the arbitrator nor can we
review the arbitrator’s conduct in connection with
this complaint. Because UTE has not brought forth a
complete record of the arbitration hearing, it has not

App.17a
met its burden of proof with respect to this issue. See
Statewide Remodeling, 244 S.W.3d at 568–69. Accordingly the trial court’s order vacating the arbitration
award cannot be upheld on this ground.
In its fourth issue, ZTE challenges UTE’s assertion
that vacatur of the award was proper because the
arbitrator exceeded his powers when he determined
that all of its claims were barred by limitations.9
Generally, an arbitrator exceeds his powers when he
decides matters not properly before him. See Ancor
Holdings, LLC v. Peterson, Goldman & Villani, Inc.,
294 S.W.3d 818, 829 (Tex. App.—Dallas 2009, no pet.).
UTE’s argument under this issue is premised on the
contention that the removed arbitrator’s June 2014
ruling denying ZTE’s motion for summary judgment on
limitations was tantamount to a partial final award
that was binding on the successor arbitrator because
ZTE never sought to vacate the ruling. UTE essentially
equates the denial of the summary judgment motion
based on limitations to an interim arbitration award
that was subject to confirmation or vacation. But
UTE provides no authority and we have found none to
support its position. Instead, UTE relies primarily on

Yasuda Fire & Marine Insurance Co. of Europe, Ltd.
v. Continental Casualty Co., 37 F.3d 345 (7th Cir.

1994), which found an interim arbitration order requiring a party to post a letter of credit as interim
equitable relief constituted an award under the FAA
9 UTE first raised this ground for vacation in its reply in support of its motion to vacate after ZTE alleged that even if the
arbitrator had concluded ZTE willfully withheld or destroyed
evidence, the outcome of the arbitration would not have changed
because the arbitrator determined all of UTE’s causes of action
were barred by limitations.

App.18a
that was subject to confirmation or vacation in the
district court. Id. at 348. Unlike Yasuda, a denial of a
summary judgment order is not interim equitable relief.
Under both federal and Texas law, orders denying
motions for summary judgment are generally considered interlocutory orders that are not final until they
are merged into a final judgment. See, e.g. Dewayne
Rogers Logging, Inc. v. Propac Indus., Ltd., 299 S.W.
3d 374, 388 (Tex. App.—Tyler 2009, pet. denied); see
also Gibbs v. Lomas, 755 F.3d 529, 536 (7th Cir. 2014)
(district court’s denial of summary judgment usually
unappealable interlocultory [sic] order); Black v.
J.I. Case Co., 22 F.3d 568, 570–71 (5th Cir. 1994)
(interlocutory order denying summary judgment
not appealable where final judgment adverse to
movant is rendered after trial on merits). Courts have
inherent authority to change or modify any interlocutory order until the judgment becomes final. See
Dewayne Rogers Logging, 299 S.W.3d at 388; FED.
R. CIV. P. 54(b). Because UTE failed to show the arbitrator exceeded his powers by ruling that UTE’s claims
were barred by limitations, the final award could not
have been vacated on this ground.
In its fifth issue, ZTE contends that because
UTE failed to present sufficient grounds for vacating
the arbitration award, the trial court erred in failing
to confirm the award. We agree. As noted above, both
FAA and the TAA provide that the trial court must
confirm an arbitration award unless grounds are
presented for vacating the award. Having concluded
that none of the grounds presented by UTE are sufficient for vacating the arbitrator’s award, the trial
court erred in failing to confirm the award. See
Hamm v. Millennium Income Fund, L.L.C., 178 S.W.3d

App.19a
256, 262 (Tex. App.—Houston [1st Dist.] 2005, pet.
denied) (FAA and TAA require trial court to confirm
arbitration award unless award is vacated, modified
or corrected under statutes). Accordingly, we reverse
the trial court’s order and render judgment confirming
the arbitration award.
CONCLUSION
On the record of this case, we reverse the trial
court’s order vacating the arbitration award and render
judgment confirming the award.
/s/ David Evans
Justice

App.20a
PLEA AGREEMENT SUBMITTED IN THE
UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
(MARCH 6, 2017)
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
________________________
UNITED STATES OF AMERICA
v.
ZTE CORPORATION
________________________
No. 3-17CR-0120K
ZTE Corporation (ZTEC), the defendant, by and
through its attorneys Clifford Chance, LLP, and
Burleson, Pate & Gibson, LLP, and the United States
Attorney’s Office for the Northern District of Texas
and the United States Department of Justice, National Security Division (collectively, the “Department”)
agree as follows:
1. Rights of the defendant: ZTEC understands that
it has the rights:
a.

to grand jury indictment;

b.

to plead not guilty;

c.

to have a trial by jury;

App.21a
d.

to have its guilt proven beyond a reasonable
doubt; and

e.

to confront and cross-examine witnesses and
to call witnesses in its defense.

2. Waiver of rights and plea of guilty: ZTEC
waives these rights and pleads guilty to the offenses
alleged in the Information: Count 1, Conspiracy to
Unlawfully Export, in violation of 50 U.S.C. § 1705(c),
31 CFR Part 560, 15 C.F.R. § 764.2(a)-(e); Count 2,
Obstruction of Justice, in violation of 18 U.S.C. § 1503
(a); and Count 3, False Statements to Federal Investigators, in violation of 18 U.S.C. § 1001(a). ZTEC
understands the nature and elements of the crimes
to which it is pleading guilty, and agrees that the
Factual Resume it has signed, incorporated herein, is
true and will be submitted as evidence.
3. Sentence: The minimum and maximum penalties the Court can impose include:
Count One
a. A maximum fine, pursuant to 18 U.S.C. § 3571,
of the greatest of $1,000,000, twice the gross pecuniary
gain derived from the offense, or twice the gross
pecuniary loss to persons other than the defendant
resulting from the offense.
b. A mandatory special assessment of $400;
Count Two
a. A maximum fine, pursuant to 18 U.S.C. § 3571,
of the greatest of $500,000, twice the gross pecuniary
gain derived from the offense, or twice the gross
pecuniary loss to persons other than the defendant
resulting from the offense.

App.22a
b. A mandatory special assessment of $400;
Count Three
a. A maximum fine, pursuant to 18 U.S.C. § 3571,
of the greatest of $500,000, twice the gross pecuniary
gain derived from the offense, or twice the gross
pecuniary loss to persons other than the defendant
resulting from the offense.
b. A mandatory special assessment of $400;
[...]
. . . to the extent the Government determines in
its sole discretion that disclosure would be in furtherance of the Government’s discharge of its duties
and responsibilities or is otherwise required by law,
and in such circumstances gives notice to ZTEC.
h. ZTEC agrees that the four employees identified
as having signed the document described in paragraphs
40-41 of the Factual Resume have resigned or will
resign or will be terminated, along with any and all
payment obligations owed to them. ZTEC further agrees
that it will accomplish this within six months of
signing this Plea Agreement and that it shall provide
the Department corroborating documentation of these
actions.
i. ZTEC agrees that if it or any of its direct or
indirect affiliates or subsidiaries issue a press release
in connection with this Plea Agreement, ZTEC shall
first consult the Department and the Department of
Commerce to determine whether (a) the text of the
release is true and accurate with respect to matters
between the Department and the defendant; and (b)
the Department and Department of Commerce have

App.23a
no objection to the release. Statements made by ZTEC
at any press conference or other public speaking event
shall be consistent with the approved press release.
j. ZTEC agrees that these undertakings shall
be binding upon any acquirer or successor in interest
to ZTEC or substantially all of ZTEC’s assets and
liabilities or business.
k. ZTEC waives all rights, whether asserted
directly or by a representative, to request or receive
from any department or agency of the United States
any records pertaining to the investigation or prosecution of this case, including without . . . .
[...]
. . . government will be free from any obligations
of this Agreement and free to prosecute ZTEC for
all offenses of which it has knowledge. In such
event, ZTEC waives any objections based upon delay
in prosecution. If any plea is vacated or withdrawn
for any reason other than a finding that it was involuntary, ZTEC also waives objection to the use against
it of any information or statements it has provided to
the Department, and any resulting leads.
10. Voluntary plea: These pleas of guilty are
freely and voluntarily made and are not the result of
force or threats, or of promises apart from those set
forth in this Plea Agreement. There have been no
guarantees or promises from anyone as to what
sentences the Court will impose. Upon entry of ZTEC’s
plea, the Department of Justice will not oppose ZTEC’s
removal from the Entity List and the Department of
Justice will use its best efforts to move for an expeditious entry of this Plea Agreement.

App.24a
11. Waiver of right to appeal or otherwise challenge sentence: ZTEC waives its rights, conferred by
28 U.S.C. § 1291 and 18 U.S.C. § 3742, to appeal from
its convictions and sentences. ZTEC further waives
its right to contest its convictions and sentences in
any collateral proceeding, including proceedings under
28 U.S.C. § 2255. ZTEC, however, reserves the rights
(a) to bring a direct appeal of (i) a sentence exceeding
the statutory maximum punishment, or (ii) an arithmetic error at sentencing; (b) to challenge the voluntariness of its pleas of guilty or this waiver; and (c) to
bring a claim of ineffective assistance of counsel.
12. Representation of counsel: ZTEC has thoroughly reviewed all legal and factual aspects of this
case with its lawyer and is fully satisfied with that
lawyer’s legal representation. ZTEC has received from
its lawyer explanations satisfactory to it concerning
each paragraph of this Plea Agreement, each of its
rights affected by this Agreement, and the alternatives
available to it other than entering into this agreement. Because ZTEC concedes that it is guilty, and
after conferring with its lawyer, ZTEC has concluded
that it is in its best interest to enter into this Plea
Agreement and all its terms, rather than to proceed
to trial in this case.
13. Forfeiture
a. ZTEC agrees to the Forfeiture Allegation in the
Criminal Information to which it is pleading guilty.
b. Specifically, ZTEC agrees to pay the United
States a forfeiture money judgment in the amount of
$143,496,266. ZTEC agrees that the Factual Resume
supporting its guilty plea is sufficient evidence to
support this forfeiture. ZTEC agrees that the Court

App.25a
may enter a preliminary Consent Order of Forfeiture
for this property at the time of ZTEC’s guilty plea or
at any time before sentencing. ZTEC agrees that this
Order will become final as to ZTEC when it is issued
and will be part of the sentence pursuant to Rule
32.2(b)(4)(A), F.R.C.P.
c. ZTEC agrees that, if ZTEC does not pay the
United States a forfeiture money judgment in the
amount of $143,496,266 within ninety (90) days after
the date of sentencing, this Plea Agreement permits
the Government to seek to forfeit any of ZTEC’s assets,
or any assets of its U.S. subsidiary, ZTE USA, Inc.,
real or personal, that are subject to forfeiture under
any federal statute, whether or not this Agreement
specifically identifies the asset. Regarding any asset or
property, ZTEC agrees to . . . .
[...]
14. Entirety of agreement: This document is a
complete statement of the parties’ agreement and may
not be modified unless the modification is in writing
and signed by all parties.
AGREED TO AND SIGNED this 6th day of March
2017.
John R. Parker
United States Attorney
/s/ Zhao Xianming
Chairman and President of
ZTE Corporation

App.26a
/s/ Wendy L. Wysong
Attorney for Defendant
/s/ J. Mark Penley
Assistant U.S. Attorney
/s/ Gary C. Tromblay
Deputy Criminal Chief
/s/ Lisa J. Dunn
Criminal Chief
/s/ Elizabeth L. D. Cannon
Trial Attorney
National Security Division

App.27a
FINAL AWARD OF THE
INTERNATIONAL CENTER FOR
DISPUTE RESOLUTION
(FEBRUARY 16, 2017)
INTERNATIONAL CENTRE FOR
DISPUTE RESOLUTION
INTERNATIONAL ARBITRATION TRIBUNAL
________________________
In the Matter of Arbitration Between
UNIVERSAL TELEPHONE EXCHANGE, INC.,

Claimant,
v.
ZTE CORPORATION AND ZTE USA, INC.,

Respondents.

________________________

ICDR Case No. 502012000342
Final Award
I, THE UNDERSIGNED ARBITRATOR, having
been designated in accordance with the arbitration
agreement entered into between the above named
parties dated March 1, 2012, and having been duly
sworn, and duly heard the proofs and allegations of
the parties, do hereby AWARD as follows:

App.28a
I.

Introduction:
Universal Telephone Exchange, Inc., (hereinafter “Claimant”) is a Texas corporation
with its principal place of business in Dallas,
County, Texas. Narasimha Bhogavalli is
Claimant’s President and equal partner.
There are two other equal partners: James
Yarclay from Liberia, and Sam Kyereh from
Ghana.
ZTE Corporation is a People’s Republic of
China company that manufactures and sells
telecommunications equipment and information technologies. Its affiliate, ZTE USA,
Inc., is based in New Jersey (both of them,
collectively, “Respondents.”)

Claimant and Respondents are parties to a
June 2, 2004 Non-Disclosure Agreement (“NDA”). The
contract was intended by the parties to define their
relationship and respective duties and obligations
relating to Claimant’s prospective purchase of equipment from Respondents. This was in anticipation of
and in conjunction with a possible joint venture contract with the Liberian Telecommunications Corporation (“LTC”) to modernize the telecommunications
system in the country of Liberia.
II.

Arbitration Provision/Rule 11 Agreement

The NDA contains an arbitration provision that
states:
“This Agreement shall be governed in all
respects by the laws of the State of New
Jersey, excluding its conflicts of law provisions. All disputes arising from the execu-

App.29a

tion of or in connection with the agreement
shall be settled through friendly negotiation
between both parties. In case no settlement
can be reached, the disputes shall be submitted to American Arbitration Association
in accordance with its rules in force at the
time of application for arbitration. The
venue of arbitration shall be in New Jersey.
The arbitration award shall be final and
binding upon both parties.”
Disputes arose from and relate to the NDA. After
winning a competitive bid that did not result in a
contract due to alleged interference by Respondents,
Claimant made various efforts in Liberia to have the
contract executed. When these efforts failed, Claimant
filed suit in the 191st Judicial Court of Dallas County,
Texas. Respondents filed a Special Appearance,
asserted affirmative defenses, including the applicable
statutes of limitations under Texas law, and a Motion
to Compel Arbitration. On April 30, 2012, Claimant
filed its demand for arbitration with the American
Arbitration Association (“AAA”). Thereafter, the parties
entered into a “Rule 11 Agreement:”
“This letter confirms our and the parties’
agreement in the above-referenced matter to
submit this case to the American Arbitra-

tion Association to be arbitrated in accordance
with the terms of the parties’ non-disclosure
agreement (except with respect to its choice
of law and venue provisions) and the rules in
force at the time of the application for arbitration. The parties agree that the venue for
the arbitration shall be in Dallas County,
Texas and the arbitration shall be final and

App.30a

binding upon the parties in accordance with
Texas law. The governing law over the dispute
shall be Texas law.
In addition, the parties agree that defendant ZTE Corporation’s special appearance
shall be decided by the arbitrator, who will
decide whether the State of Texas has
personal jurisdiction over ZTE Corporation
. . . the parties agree that the date of filing
the arbitration demand for statute of limitations purposes shall relate back to the date
of filing plaintiff’s original petition which
was filed on June 11, 2010.”
On September 12, 2012, an arbitrator was appointed by AAA. He presided over the arbitration hearing,
made rulings on motions, and heard the evidence.
However, at the close of the evidence, before an award
on the merits was issued, for reasons not relevant to
this Award, the arbitrator was requested by both
parties to stand down. The parties participated in a
second selection process and, on May 2, 2016, the
undersigned was appointed as sole arbitrator.
The arbitration hearing was conducted in Dallas,
Texas during the weeks of October 17 and October
24, 2016. Additional briefs and exhibits were filed,
and the hearing was declared closed on December 21,
2016. Counsels appearing for Claimant were Lawrence
Friedman, John Sokatch and Carlos Morales of Friedman & Feiger, L.L.P., and Richard Faulkner, James
Blume and Mercy McBrayer of Blume, Faulkner &
Skeen, PLLC. Respondents were represented by Jim
Davis and John Fraser of Ferguson, Braswell & Fraser.
P.C.

App.31a
On the first day of the hearing. Claimant filed a
motion for the Tribunal to warn Respondents of
potential drawing of adverse inferences against
Respondents if they did not produce any and all
documents responsive to Claimant’s discovery requests
and subpoenas. The Tribunal took this motion under
advisement.
III. Backdrop
The LTC was established in 1973 and granted
monopoly rights. Liberia experienced two civil wars
that lasted from 1999 to August 18, 2003. The war
ended as a result of a Comprehensive Peace Agreement
(“Accra Peace Accord,”) entered into by the various
warring factions. LTC equipment was severely damaged
or destroyed during the civil wars; corruption, looting,
and the loss of customers, left LTC in a fragile financial
condition. It struggled to pay its employees and to
maintain its dilapidated equipment. Without foreign
investments, LTC was incapable of rebuilding the
country’s telecommunications system.
The Accra Peace Accord suspended provisions of
the Liberian Constitution, called for new elections,
and established a National Transitional Government
of Liberia “(NTGL”). The NTGL commenced on October
14, 2003 and was mandated to expire on January, 2006,
when the newly elected government would be inaugurated. Immediately upon installation of the NTGL, all
cabinet Ministers, Deputy and Assistant Ministers of
the current government, all members of the Supreme
Court, and heads of public corporations, and Stateowned enterprises, were deemed to have resigned.
The NTGL consisted of an Executive branch,
headed by the Transitional Chairman of the NTGL,

App.32a
C. Gyude Bryant ((“President Bryant”); a National
Transitional Legislative Assembly (“NTLA”), and a
Transitional Judiciary. The NTGL re-established some
departments, created new ones, appointed new heads
of agencies/departments, and Supreme Court Justices.
With the assistance of consultants from the World
Bank, the NTGL established a new policy for LTC,
with three goals in mind:
1.

Open competition in the selection of credible
investors in the rehabilitation, revitalization,
and modernization of LTC,

2.

Maximum level of transparency in the negotiations leading to an agreement and

3.

The highest degree of protection for all
investments made in Liberia.

Article 17 of the Accra Peace Accord established the
Contracts and Monopolies Commission (or “CMC”). It
was tasked with the responsibility of reviewing and
ensuring that all public financial and budgetary commitments over $20,000.00 USD entered into by the
NTGL, were transparent, non-monopolistic and in
accordance with the laws of Liberia, and internationally
accepted norms of commercial practice. This was the
environment under which a variety of disputes arose.
IV. Factual Background
After James Yarclay became aware that LTC
planned to rebuild its telecommunication system, he
moved back to Liberia, and opened an office in
Monrovia. In early 2004, LTC sought and obtained a
bid from a New Jersey company, Engineering & Professional Services (“EPS”), to install and integrate a

App.33a
comprehensive and modern telecommunications system
in Liberia. On March, 2004, after spending a substantial amount of time, money, and resources, EPS submitted a confidential written proposal to LTC.
The proposal had a typical proprietary statement that generally provided that the furnished data
could not be disclosed to other parties for any purpose other than to evaluate the proposal. The EPS
proposal included a three phase implementation plan;
phase I: Monrovia; phase II: Greater Monrovia, and
phase III: nationwide. It also required a down payment
of approximately $170 million, due in 60 days after
signing the contract. On April 12, 2004, LTC signed a
contract with EPS for these services and equipment,
even though it knew at the time that it did not have
the money to pay for it. After LTC did not go forward
with the EPS contract, it started its search for a joint
partner that would finance and manage the project.
In April, 2004, James Yarclay met in Dallas with
President Bryant and other Liberian officials. Claimant
expressed interest in becoming a joint venture partner
with LTC. Contemporaneously, Claimant began to
assemble a list of potential vendors for equipment for
the Liberian project. After investigating various
vendors, Claimants settled on Respondent. What
followed were many months of exploratory discussions,
and numerous in-person meetings between representatives of Claimant and Respondents. The fact finding
discussions included an assessment of the state of
affairs in Liberia, types of equipment, costs, payment
terms, and Respondents possibly financing all or part
of the project. Prior to Claimant contacting Respondents, Respondents were not aware of this potential
business opportunity in Liberia. Early in the negotia-

App.34a
tions, Respondents proposed and drafted the June 2,
2004 NDA.
The NDA provided that either party may disclose
confidential information to the other party in the
course of exploring a potential business relationship.
The party receiving the confidential information of the
other, was obligated to hold the information in confidence, to exercise diligence in preserving the secrecy
of such information, and to not duplicate, alter, reveal,
or reuse design information or prototypes fabricated
according to the confidential information. it further
provided that disclosure by or to an affiliate of a party
shall be deemed to be a disclosure by or to that party,
as applicable. The parties agreed to comply with all
United States treaties, laws, and regulations.
The NDA also had Exclusions from Nondisclosure
and Nonuse Obligation:
“Information received from the Disclosing
Party shall not be deemed to be confidential
information if the party seeking to avoid its
obligation under such paragraph can document that: (i) it was in the public domain at or
subsequent to the time it was communicated
to Receiving Party by disclosure through no
fault of Receiving Party; (ii) it was rightfully
in Receiving Party’s possession free of any
obligation of confidence at or subsequent to
the time it was communicated to Receiving
Party by Disclosing Party . . . ”
On June, 2004, LTC gave a copy of the EPS
proposal to Claimant; this same month, Claimant incorporated the EPS proposal into a build, operate and
transfer (“BOT”) proposal with Claimant financing,

App.35a
and submitted it to LTC. In July, 2004, Claimant gave
a copy of its June, 2004 proposal to Respondents and
in August, 2004, Claimant and Respondents entered
into a Memorandum of Understanding (“MOU”) about
a prospective vendor agreement for the Liberian
project.
On September 25, 2004, LTC agreed in principle
with Claimant to enter into a shared management
contract. This agreement was formalized in an October, 2004 MOU. The parties agreed that LTC and
Claimant would form and own a joint venture company for the modernization of the Liberian telecommunications system. Claimant would own 70% of the
company and LTC 30%. Claimant agreed to provide
immediate funds, enumerated equipment within a
specified time; the duration of the Agreement was
fifteen (15) years with automatic five (5) years
renewals, and implementation would be in three (3)
stages, similar to the EPS proposal.
On November 24, 2004, LTC wrote a letter to
Respondents advising them of the joint venture agreement between LTC and Claimant and stating that
Claimant had chosen Respondents as a preferred
vendor. This same month, Amara M. Kromah and
Alfred Bargor, Sr., LTC’s Managing Director and
Deputy Director, in a secret “Consulting Agreement,”
agreed to lobby on behalf of Respondents to be the
vendor of equipment for the project and Respondents
would pay them 5% of all equipment sales made by
Respondents in connection with the LTC revitalization
project.
Mr. Kromah entered into a second “Consulting
Agreement” with Respondents with the same terms as
before. For a fee of a 5% commission for all Respond-

App.36a
ents’ equipment sales to LTC, he agreed to lobby on
behalf of Respondents to become the vendor of the
equipment. He received two cash payments from Respondents, in a paper bag, $30,000.00 USD, and then
$15,000.00 USD.
Mr. Bargor also entered into a second confidential
“Consulting Agreement” with Respondents, under the
same terms as before. He was paid $30,000 USD cash,
in a paper bag by Respondents.
On November 8, 2004, the no bid BOT agreement between Claimant and LTC came to a halt. As a
result of the August 18, 2003 Accra Peace Accord,
President Bryant instructed LTC to advertise and
invite open competitive bids for upgrading LTC. In
November 29, 2004, Claimant gave Respondents a
digital copy of its confidential Liberian project. The
file included bid documents, technical specifications,
financial projections, site survey information and the
like. On January, 2005, Claimant submitted its bid
proposal to LTC. Unbeknownst to Claimant at the
time, Respondents submitted its own BOT bid to
LTC.
The bid application fee was $5,000.00 USD. The
Bid Submission Document informed prospective bidders that the bids would be evaluated on eleven categories, such as Financial Capacity, Technical Capacity,
Industry Experience, and the like. This document
announced the maximum number of points that could
be achieved in each evaluation category. The maximum
points that each applicant bidder could accumulate
was 100 points.
Five bidders qualified for an evaluation:
1.

L Infotel-Italia

App.37a
2.

ZTE Corporation

3.

International Gateway Africa

4.

Universal Telephone Exchange (UTE)

5.

Huawei Technologies Company

The Bid & Evaluations Committee vetted the proposals and conducted interviews with each bidder to
clarify specific issues that were of concern or importance to members of the committee. Mr. Kromah and
Mr. Bargor were two (2) of thirteen (13) members of
this Committee. On February 14.2005, the committee
announced the results:
1.

UTE-89 points (Claimant)

2.

Huawei-79 points

3.

Infotel-66 points

4.

ZTE-57 points (Respondent)

5.

International Gateway Africa-43 points

The Bid and Evaluation Committee submitted the
names of the three highest bidders to LTC, and LTC
passed a resolution confirming the winning bid. Claimant began drafting the contractual terms of the Joint
Venture agreement. However, despite not winning
the bid, Respondents continued their efforts to be the
supplier of the equipment.
On March, 2005, the Contracts and Monopolies
Commission conducted its own investigation and
concluded that Claimant’s winning bid was significantly
identical to the EPS proposal. CMC contacted EPS and
EPS informed CMC that it had not authorized the use
of its intellectual property. After its due diligence
inquiry, the CMC determined that Claimant did not

App.38a
have the financial resources nor the operational capacity
to carry out the joint venture project. Also, CMC
learned that James Yarclay was a convicted felon, a
fugitive from justice, and had declared bankruptcy.
The CMC recommended that President Bryant not
approve an LTC/Claimant joint venture contract, and
the contract was never executed.
On June 10, 2005, Claimant filed a complaint with
the Committee on Post and Telecommunications,
complaining about the actions taken by President
Bryant and the CMC. This committee found in favor
of Claimant, and reported their findings to the NTLA.
With a 2/3rds majority vote, NTLA passed a Resolution
which stated that the bid process was conducted
fairly. and recommended that a contract with Claimant
be executed. It forwarded the resolution to President
Bryant, and he made it known that he was not going
to approve it and returned the Resolution back to
NTLA. The NTLA again passed a “Binding” Resolution
with a 2/3rds vote, requesting that President Bryant,
“respect and enforce the result and recommendations”
of LTC’s Bid and Evaluation Committee. President
Bryant refused. Claimant argues that under Liberian
Law, the NTLA’s second resolution automatically overrode the President’s “veto” and became law as a “Bill.”
After President Bryant’s rejection of the LTC/
Claimant contract, Respondents began moving equipment and services to the LTC building under the
guise of a “donation” agreement. Claimant obtained a
Stay Order against Respondents, but this order was
appealed.
Thereafter, Claimant pursued legal remedies
trying to finalize the agreement with LTC. On November 18. 2005, Claimant filed a Petition for a Writ of

App.39a
Mandamus with the Liberian Supreme Court, requesting that the Court order LTC to sign the contract with
Claimant. On January 12, 2006, a then sitting solo
Transitional Supreme Court Justice, ruled in favor of
Claimant. On January 30, 2006, Claimant brought a
civil suit against LTC and Respondents, alleging
unfair business competition, collusion with Liberian
officials and bribery.
In February, 2006, the newly elected President
of Liberia took office and appointed a new Supreme
Court and new managers of LTC. LTC appealed the
ruling of the Transitional Justice and on August 18,
2006, the full Supreme Court, in a unanimous opinion,
reversed. It held that the Writ of Mandamus was not
an appropriate remedy. The Court wrote that this writ
is appropriate only to require an official to comply
with a legal duty, not to redress private contract
rights. In essence, the Court held that Claimant had
an adequate remedy at law, and noted that Claimant
had a civil suit pending in a Liberian trial court
involving the same subject matter. As of April 2014,
the case was pending.
With the LTC/Claimant joint venture contract
stalled because of conflict between the LTC, NTLA
and President Bryant, Respondents continued to
pursue sale of equipment to LTC. On June 5. 2005, Mr.
Kromah entered into the second Consulting Agreement with Respondents, agreeing to do his best to make
sure that Respondents would be the equipment vendor
in a proposed BOT contract between LTC and AFRIPA/
A-Link. Mr. Kromah revived a dormant 1999 BOT
contract between LTC and AFRIPA/A-Link, and used
this amended contract as the instrument by which
LTC purchased equipment from Respondents. Res-

App.40a
pondents moved equipment and personnel to the
LTC Building. In July 1, 2005, Respondents rewarded
Mr. Kromah and a traveling companion with an allexpenses paid trip to China which included an unlimited shopping spree, and $1,000.00 USD cash. During
this visit, Mr. Kromah, signed a MOU for LTC to
purchase equipment directly from Respondents.
Ranney B. Jackson, Sr., the Chairman of the Post
and Telecommunications Committee, and currently
Deputy Minister for External Affairs of Liberia, testified
that he was involved in drafting Article 17 of the
Accra Peace Accord, and that under Liberian Law,
neither President Bryant nor the Contracts and Monopolies Commission, had power to annul the decision
of the NTLA; that LTC did not have legal authority
to enter into a contract with anyone but Claimant.
Charles Brumskine, a Liberian law expert, testified
that the NTLA “Binding” Resolution purporting to
instruct President Bryant to approve the LTC/Claimant
contract, was a “legal nullity,” a mere expression of
their preference, and that President Bryant acted
within his authority in declining to approve the contract.
Dusty Wolokolie, a member of the Contracts and
Monopolies Commission, testified that James Yarclay
offer him and other members of the CMC, financial
remuneration if they affirmed the decision of the Bid
and Evaluations Committee and the NTLA.
V.

Claimant contends that:
1.

Respondents learned of the LTC bid process
entirely from Claimant and had it not been

App.41a
for Claimant, Respondents would not have
known of this business opportunity in Liberia.
2.

It is not possible for Respondents to have
prepared a comprehensive bid from the date
it picked up the bid package on December
10, 2005 to the date it was due in January
17. 2006.

3.

Respondents must have used Claimant’s
propriety information that it copied in New
Jersey, when on November 29, 2004, at Respondents request, Mr. Bhogavalli turned
over his laptop computer to Respondents so
that they could copy his Liberian project file.

4.

After Claimant was declared to have the
winning bid, Respondents continued to meet
with LTC and other government agencies to
interfere with and “steal” Claimant’s contract
with LTC.

5.

The confidential consulting agreements and
cash payments by Respondents to Mr. Kromah and Mr. Bargor, and the all-expense paid
trips to China, are evidence of bribes and
Respondents’ wrongful interference with its
business opportunity.

6.

The bribery and corruption that Respondents
engaged in is against the laws of the United
States, the States of Texas and New Jersey,
the People’s Republic of China, Liberia, and
the laws and treaties of the international
community.

App.42a
7.

Respondents’ wrongful conduct was the direct
result of Claimant not getting the BOT contract, causing damage to Claimant.

8.

Respondents failed to comply with reasonable
discovery requests and intentionally withheld
information from Claimant and the Arbitration Tribunal. Thus, the Tribunal should
draw adverse inferences against Respondents.

VI. Claimant’s Causes of Action
Claimant contends that Respondents’ bad acts
entitle Claimant to an award for consequential
damages, statutory damages, disgorgement, penalties,
punitive damages, attorneys’ fees and costs, for the
following reasons:
A.

Breach of Contract: Claimant asserts that
Respondents breached their obligations under
the NDA by appropriating for their own
benefit and using Claimant’s confidential
and proprietary information obtained under
the NDA to compete with Claimant and do
business with LTC and third parties.

B.

Misappropriation of trade secrets: Respondents wrongfully used and misappropriated
Claimant’s trade secrets.

C.

Fraud: Respondents misrepresented that
the information provided under the NDA
would be and remain confidential, and not
be used against Claimant.

D.

Conversion and civil theft: Respondents
wrongfully exercised dominion and control

App.43a
of Claimant’s confidential and proprietary
information.
E.

Tortious interference with contracts and
prospective business relations: Respondents
interfered with Claimant’s reasonable expectation of economic benefit, “but for” said interference, Claimant would have obtained the
benefits of the very lucrative BOT contract
with LTC.

F.

Violations of the Texas Theft Liability Act:
Respondents unlawfully appropriated, secured
and/or stole Claimant’s property in violations
of Texas Penal Code sections 31.03, 31.04
and 31.05.

G.

Trespass to chattels: Respondents intentionally interfered with Claimant’s use or possession of Claimant’s chattels.

H. Civil conspiracy: Respondents were members
of a combination of two or more persons, the
object of which was to accomplish an unlawful
person.
I.

Common Law Misappropriation of time, labor,
skill and money: Respondents appropriated
for their own benefit Claimant’s confidential
and proprietary work.

J.

Racketeer Influenced & Corrupt Organization
Act (“RICO”) cause of action: Respondents
through various officers and employees, traveled across U.S. States and international
boundaries, and also used the private commercial carriers, telephone, fax and “Internet”
wires and other instrumentalities of inter-

App.44a
state and international commerce within the
last ten (10) years, in the conduct of their
bribery and corruption scheme. Respondents
knew of and agreed to the overall objectives
of the predicate RICO offenses. Overt acts
were performed by or participated in by Respondents to further the racketeering activity.
18 U.S.C. §§ 1961-1968, commonly known
as “RICO”, and its New Jersey counterpart.
N.J.S.A. § 2C:41-1, et seq., commonly and
hereafter known as the “Little RICO” Act.
Claimant asserts that it is entitled to statutory damages, treble damages, disgorgement,
interest, attorneys’ fees, and costs as a result
of Respondents’ actions.
K.

Federal Corrupt Practices Act and Travel
Act: Respondents’ activities violated and give
rise to statutory liability under the Foreign
Corrupt Practices Act, 15 U.S.C. § 78dd-1, the
Travel Act, 18 U.S.C. § 1952.

L.

United Nations Convention on Contracts for
the International Sale of Goods: Violations
of the Convention on the International Sale
of Goods Agreement are contained in multiple
documents including the NDA.

VII. Respondents’ Defenses
1.

All of Claimants’ causes of action are barred
by statutes of limitations.

2.

The RICO claims are outside the scope of this
arbitration and should be dismissed with
prejudice; in the alternative, Claimant cannot

App.45a
prove the elements of a civil RICO under
either Federal or New Jersey law.
3.

To the extent Claimant is asserting a private
cause of action under the Foreign Corrupt
Practices Act, the claim is legally deficient.

4.

Claimant did not prove it provided any
“Confidential Information” to Respondents.

5.

Any information given to Respondents by
Claimant was in the public domain at or after
the time it was given to Respondents, and
the NDA expressly excludes information
that was in the public domain.

6.

Claimant failed to prove Respondents’ relied
on or used any confidential information in
connection with any proposal Claimant submitted to the LTC.

7.

Even if Respondents had obtained and had
used Claimant’s alleged “Confidential Information,” such use caused no harm to Claimant.

8.

Respondents could not have used any
alleged “Confidential Information” or trade
secrets of Claimant in connection with Respondents’ proposals to provide their own
telecommunications equipment to Afripa/Alink in June 2005 or to LTC.

9.

Claimant did not design, manufacture, or sell
telecommunications equipment, therefore did
not have any “Confidential Information”
regarding design, functionality, or pricing of
telecommunications equipment.

App.46a
10. Even if Respondents used information that
they obtained from Claimant in connection
with Respondents’ bid for the LTC’s BOT
contract, Respondents did not interfere with
Claimant’s contract expectation, as LTC
rejected Respondents’ bid and awarded the
winning bid to Claimant.
11. Respondents did not interfere with Claimant’s
prospective contractual relationship with the
LTC “by shipping and installing” Respondents’ equipment in the LTC’s premises.
12. Even if Claimant had been a seller of telecommunications equipment, Respondents had
the right to compete with UTE.
13. The NDA did not bar competition between
Claimant and Respondents.
14. Respondents owed no common law duty to
Claimant not to compete for sales of equipment in Liberia.
15. Claimant has no credible evidence that
Respondents bribed any official of the Liberian government, but only that Respondents
sought to influence them to cause the LTC to
purchase equipment from Respondents.
16. Respondents did not attempt to deprive
Claimant of the prospective BOT contract.
17. Respondents did not cause Claimant any damages because Respondents did not cause
Claimant to lose the BOT contract with the
LTC.

App.47a
18. The government of Liberia deprived Claimant
of its prospective contract with the LTC.
19. Respondents’ actions were not the “but for
cause” of Claimant losing out on its prospective contractual opportunity.
20. Even if Respondents caused Claimant damages, the damages are not reasonably certain
under Texas Law because Claimant had only
been in business for three (3) years.
21. Claimant’s limited experience was as a competitive local exchange carrier and not as a
telecommunications system integrator, installer, and operator.
22. Claimant lacked the financial wherewithal to
perform the contemplated joint venture agreement.
23. Claimant is not entitled to damages in the
form of disgorgement of Respondents’ profits
in connection with Respondents’ sales of
telecommunications equipment in Liberia.
24. Neither the NDA nor the circumstances of
their prospective buyer-seller relationship
created a fiduciary relationship.
25. Adverse inferences against Respondents are
not warranted because there is no evidence
that Respondents acted with the subjective
purpose of concealing or destroying discoverable evidence.
VIII. Findings of Fact
1.

This was a high risk business venture.

App.48a
2.

Claimant did not have experience as a telecommunications system integrator, installer
and operator.

3.

Claimant and Respondents did not enter
into a vendor agreement.

4.

Notwithstanding the nefarious relationship
between Mr. Kromah, Mr. Bargor and Respondents, Claimant won the bid.

5.

Claimant did not present evidence that Respondents intentionally destroyed evidence.

6.

It is conceivable that during the approximately ten (10) year gap between the time the
events took place and Claimant’s request for
production, documents were lost or destroyed
in the ordinary course of business.

7.

James Yarclay offered Dusty Wolokolie money
if he looked favorably on Claimants’ proposal.

8.

To the extent any of the foregoing Findings
of Fact also constitute Conclusions of Law,
they are adopted as such.

IX. Conclusions of Law
1.

All of Claimant’s causes of action are time
barred by applicable statutes of limitations.

2.

Even though Claimant’s legal claims are
barred by limitations, in the interest of justice,
I will address them.

3.

There is no vendor contract between Claimant
and Respondents.

4.

The Memorandum of Understanding entered
into by Claimant and Respondents is not a

App.49a
binding contract; it lacks all of the elements
of an enforceable agreement: an offer to sell
specific equipment, acceptance, consideration,
and the intention to be legally bound.
5.

The Non-Disclosure Agreement did not create
a fiduciary duty between Claimant and Respondents.

6.

The conduct of the parties did not create a
fiduciary duty between Claimant and Respondents.

7.

The Non-Disclosure Agreement did not bar
competition between Claimant and Respondents; Respondents were free to submit their
own bid.

8.

Claimant and Respondents were engaged in
arm’s length transactions.

9.

Even if Respondents misappropriated and
used Claimant’s confidential information
and bribed LTC’s employees, Claimant did
not suffer compensable damages because
Claimant was awarded the winning bid.

10. Respondents’ behavior is not the “but for
cause” of Claimant losing out the contract with
the LTC.
11. As a state owned business, LTC is under the
supervision of the Executive Branch of Government.
12. Claimant lost the contract because the Contracts and Monopolies Commission concluded
that Claimant was not qualified and President Bryant did not approve the contract.

App.50a
13. Respondents did not tortuously interfere with
Claimant’s prospective business relationship.
14. Claimant failed to prove the existence of a
RICO enterprise or a pattern of racketeering activity.
15. Claimant failed to prove all of its causes of
action by a preponderance of the evidence.
16. Adverse inferences against Respondents are
not warranted because Claimant failed to
prove that Respondents acted with subjective intent to conceal or destroy discoverable
evidence.
17. To the extent any of the foregoing Conclusions
of Law also constitute Findings of Fact, they
are adopted as such.
AWARD
For the reasons stated above, I award as follows:
1. All claims presented in this arbitration by
Claimant, Universal Telephone Exchange, Inc. against
Respondents, ZTE Corporation and ZTE USA, Inc. are
hereby denied.
2. Attorney’s fees are denied to Claimant and
Respondents.
3. The Administrative fees and expenses of the
International Centre for Dispute Resolution (ICDR)
totaling $30,550.00 USD and the compensation and
expenses of the Arbitrator totaling $167,793.99 USD
are to be borne as incurred.
4. This AWARD is in full settlement of all claims
and counterclaims submitted in this arbitration. All

App.51a
claims for relief not expressly granted herein, including
all claims set forth by the Parties in their pleadings,
in their pre- and post-hearing briefs, or orally at the
hearing, are hereby DENIED.
/s/ Hon. Raul A. Gonzalez
Arbitrator
February 16, 2017

App.52a
PLAINTIFF’S AMENDED MOTION TO VACATE
ARBITRATION AWARD AND DEFENDANTS’
MOTION TO CONFIRM ARBITRATION AWARD
—TRANSCRIPT OF PROCEEDINGS,
RELEVANT EXCERPTS
(JUNE 8, 2017)
IN THE DISTRICT COURT OF DALLAS COUNTY,
TEXAS, 44TH JUDICIAL DISTRICT
________________________
UNIVERSAL TELEPHONE EXCHANGE, INC.,

Plaintiff,
v.
ZTE CORPORATION and ZTE USA, INC.,

Defendants.

________________________

Court of Appeals Cause No. 05-17-00781-CV
Trial Court Cause No. DC-10-07052-B
Before: Hon. Bonnie Lee GOLDSTEIN,
Presiding Judge

[June 8, 2017 Transcript, p.11]
MR. DAVIS [COUNSEL FOR DEFENDANTS]: Good morning, Your Honor. You have indicated what piqued
your interest, and I will primarily address
those issues and suggest from our perspective
whether and to what extent they are relative.

App.53a
And, of course, I hope be able to answer any
questions you might have.
[...]
But, in any event, however good the evidence was,
however persuasive it might have been, it was
Justice Gonzalez’s job as arbitrator to hear it,
consider it, rule on it, and decide whether, per
the request of UTE, that adverse inferences
should be imposed based upon the notion—sort
of like spoliation of evidence—that there should
have been documentation of X. It’s not here, and
there is evidence that you destroyed it or withheld
it with an intent to deprive this tribunal of
relevant evidence.
And that was argued very effectively, very thoroughly by UTE’s counsel. Justice Gonzalez took
it under consideration, and he specifically rejected
that. He said, I’m not imposing any adverse inferences.
He said, the documents and testimony and witnesses you are talking about involve things that
occurred 12 or 13 years ago. It is equally likely
that anything that you think should exist but
doesn’t—which, by the way, there is nothing
specific really—but if there is something, if you
think there was documentation or evidence that
should have existed but wasn’t produced, it could
have been lost; it could have been destroyed in
the ordinary course of document maintenance.
There was no evidence that there was some
destruction of evidence or some withholding of
evidence here.

App.54a
And Justice Gonzalez said, therefore, I don’t—
I’m not going to impose adverse inferences, and I
don’t think you have proven anything to me about
withholding evidence or destroying evidence.
[...]
MR. FAULKNER [COUNSEL FOR PLAINTIFF]: May I
rise? Richard Faulkner on behalf of UTE.
[...]
. . . I have been a lawyer for nearly 40 years, and
I started in the tradition of a southern gentleman.
One thing that is important is that ZTE has a
documented history of misleading its own lawyers
as well as courts, tribunals, and the Congress.
So nothing that we say in any way, shape, or form
relating to this case in any way reflects adversely
on our opposing counsel. They have always
behaved in the best traditions of the federal, international, and Texas bars.
We do not say that Justice Gonzalez is incompetent. Quite the contrary, what we say is, he was
bamboozled. He was misled just the same way
that ZTE has established a pattern of misleading the United States Congress, the United States
District Court for the Southern District of New
York, and our cited Vringo versus ZTE case—
which has led to sanctions and new litigation
filed as recently as approximately a month ago
contesting, amongst other things, whether or not
the lawyers were misled and/or misled the Court,
perhaps inadvertently, in another matter involving
ZTE on similar issues.
[...]

App.55a
MR. FAULKNER: . . . Some of what we were denied
was the ability to call Ashley Yablon. We knew
he was in some way, shape, or form a whistleblower. We did not know at the time that the
federal government had offered him Witness
Protection Program status.
THE COURT: So you are not going to find him.
MR. FAULKNER: No, he is out. He declined it. He is
now giving interviews in the news media. He is
available. He settled his dispute with ZTE.
One of the other witnesses who was unavailable
was—we jokingly refer to him as General Ding
Ming Feng. It became a running joke among us
that Ding Ming Feng was absent.
But Ding Ming Feng was the Vice President of
Global Sales. Why is this important? Because in
the federal plea bargain and in the factual resume
associated with the plea bargain, the Vice President of Global Sales is required to be terminated
and not paid.
The CEO is required to be terminated and not
paid.
The Vice President of Logistics was required to be
terminated and not paid. And there was a fourth
one, and I forget his title.
But, basically, the same people who were in charge
of ZTE at the time of our arbitration have all
been fired and are not to be associated with ZTE.
During the course of our arbitration, we tried to
get Ding Ming Feng’s testimony. He appeared once

App.56a
earlier in the case via Skype deposition through
...
[...]
MR. FAULKNER: But some of the documents that we
were unable to obtain, based upon ZTE’s supposed
inability to locate the documents, were things
such as the bid package. How in the world could
they do a multi-billion-dollar project, which our
opposing counsel values at $4 billion, without
having the bids? Without having the contracts
they executed with the Liberian Telecommunications Commission?
We were missing all of the contracts relating to
Africa, the stand-in fake company that was used
by ZTE to steal the business, very similar to the
types of stand-in cut-out companies that ZTE
admits to using in the criminal plea bargain.
This is standard operating procedure for them.
THE COURT: But you knew back in 2004 and 2005
of all of this bad conduct.
MR. FAULKNER: We knew of some of it, Your Honor.
And as you have already pointed out, we did not
have a criminal conviction in the United States
admitting to or establishing that type of bad
behavior.
There was a criminal conviction in Algeria, and
all of the ZTE employees fled the country before
they could be arrested. . . .
We did not know that at the same time we were
engaged in this arbitration, ZTE, for reasons of
profit, was willing to risk misleading and lying

App.57a
to the United States Department . . . Bureau of
Investigation.
And, quite . . . our argument is simple. . . . if they
will take the risk for a few hundred million dollars
of jail time, of being barred in this country—they
claim that we had a $4 billion dispute here—it is
logical to take and assume that the Chinese conducted economic warfare against UTE, a little
Texas start-up who never knew it was in a war,
and they used the same techniques.
[...]
MR. FAULKNER: Oh, because, Your Honor, we have
in Liberia the admitted established bribery of
government officials to steal the contract. No
question about it. . . .
The techniques used by ZTE included corruption,
destruction of documents. Those are things that
were done to UTE. They parallel and have now
been admitted by ZTE as being done against the
United States of America. At the same time
[...]
MR. FAULKNER: Except that we could not get a number of key documents, some of which I have been
referring to.
And without those documents, without being able
to bring Mr. Yablon in as a witness who could
verify that what we were saying was correct: that
they had in fact destroyed records, that they had
in fact concealed witnesses, that they had in fact
arranged for witnesses to provide false testimony,
that they had in fact misled their own lawyers.

App.58a
. . . He had information that the FBI secretly
mirrored his hard drive, that we believe will
include some of the documents relevant to this
case that ZTE hid.
If the basis of vacating an arbitration award on
fraud, corruption, and undue means has any meaning in law, it is this case. How would any private
company, without the resources of the FBI and
the Department of Justice, ever realistically be
able to establish the kind of organized corporate
criminal activity and misleading of courts and
tribunals without relying on subsequent, almost
contemporaneous criminal pleas and admissions.
And what we are saying is that all of ZTE’s nowadmitted criminal activity parallels, mirrors, and
virtually duplicates what was done to UTE. We
had no independent ability to do anymore than we
did. We were misled. The arbitrator was misled,
just like they misled Congress and the courts
here and abroad. Consequently, it is fraud. It is
undue means.
[...]
MR. FAULKNER: As a professor, I love this stuff
because we finally get a good explanation of what
the law means based on these facts in a situation
where it’s not going to open the floodgates of
litigation or challenges.
Consequently, the fraud, the corruption, and the
undue means, corruption—they admit they bribed.
The ministers came to the United States and testified they were bribed. No question about that.
Tens of millions of dollars that were supposed

App.59a
to additionally be paid in bribes, I don’t know
whether they ever were.
But there is your corruption. Fraud, they misled this tribunal. They misled UTE. They have
engaged in a pattern of spoliation of evidence,
destruction of information, concealing of witnesses.
And, quite frankly, Mr. Yablon probably wasn’t
concealed by them. I think we will probably discover that he was one who was hidden by the
Federal Bureau of Investigation to protect one of
their key people. Be that as it was, he was unavailable to us, even though we attempted to find him
and get his testimony.
Ding Ming Feng was theirs. He was not readily
available. His title—and I cannot say that Ding
Ming Feng himself—
[...]
MR. FAULKNER: D-i-n-g M-i-n-g F-e-n-g. I hope I
spelled that right. In any event, I don’t think we
will be seeing him in the United States.
However, he—we were—it was represented to the
tribunal and represented to us in the arbitration
that he no longer worked for ZTE. But we were
able to find that he worked for ZTE Holdings.
Holdings, for most of us, suggests a superior
company. . . .
And that position is one of the four positions
named in paragraphs 40 and 41 of the Factual
Resume attached to the plea bargain stating those
people will be terminated, removed, and not
allowed to get anymore money from ZTE.
[...]

App.60a
On the limitations issue—
THE COURT: All right. Hold on.
[...]
THE COURT: Judge Kendall, are you making an
appearance in this case?
[...]
THE COURT: I guess if you want to speak, you might
want to.
MR. KENDALL: Yes, I do.
[...]
But you don’t know what you don’t know. . . . if
. . . what is before the Court is the Factual Resume
from the federal criminal case, and of particular
interest would be paragraphs 57 through 68 of the
Factual Resume which outlines the conduct which
was engaged in.
[...]
MR. KENDALL: . . . what’s interesting, what kind of
leaps off the page, is this involves in-house counsel
of ZTE.
Number two, they lied to their own lawyers there.
Their own lawyers didn’t know what was going on.
Number three, they put in place a 13-member—13
IT folks who were the, euphemistically named,
the contract induction something or another team.
Anyway, all of them had to sign NDAs which had
a penalty clause of $1 million per if they disclosed
what they were doing. And what they were doing
was scrubbing the hard drives.

App.61a
Once again, you know, you don’t know what you
don’t know. But all of this conduct was contemporaneous with this arbitration, and it involved
their general counsel which—not general counsel;
let me back off that. I don’t know that that’s for
sure, but certainly in-house counsel.
[...]
MR. DAVIS: . . . certainly, one would think that if you,
as an entity or an individual, would be willing to
lie to the FBI and to federal prosecutors, it is not
a stretch to think that you would hide the ball
from your lawyers in an arbitration in Dallas,
Texas, as well as the arbitrator.
[...]
MR. DAVIS: At the first final arbitration hearing,
UTE had issued—or had asked Judge Lopez, the
arbitrator, to issue a subpoena for Ashley
Yablon—who had been the in-house counsel for
ZTE U.S.A.—for the very reason, they said,
you’ve got to hear about all of this Iran stuff and
all the experts and the fact that they were
hiding and destroying documents.
And we said that that’s just utterly irrelevant
and a waste of time.
[...]
MR. DAVIS: They didn’t get him served. I don’t know
why. He was not an employee of ZTE at that
time, so ZTE had no control over him. If they
didn’t get him served, didn’t get him there to
testify, that was their lack of diligence.
[...]

App.62a
MR. DAVIS: . . . in fact, Mr. Ding did testify at the
first final hearing, and it was on the record
because a record was maintained of that hearing.
And he testified, sure, with an interpreter, and it
was on Skype. And they asked him questions,
and he said that he didn’t know anything and/or
he denied everything they asked him.
Well, you know, that’s a shocker. I mean, they
were asking him, Isn’t it true that you are an
international criminal? Isn’t it true that you, you
know, violate laws all over the country?
And he is like, I don’t know what you are talking
about, no.
Now, was he lying? I don’t know. But they got
their opportunity to cross-examine him right in
front of Judge Lopez by Skype.
[...]
THE COURT: But you don’t think Justice Gonzalez
might have had a different perspective based upon
the plea of guilty?
[...]
THE COURT: I understand that. That’s why the distinction for me—that’s why I asked about the
criminal proceedings, is there is a huge difference
between a plea of guilty or a conviction versus
mere allegations or an investigation. . . .
[...]
MR. DAVIS: . . . And if the obstruction of justice had
to do with, like they said, efforts that were made
to keep documents from being produced and lying
to the attorneys, all of that is in there. . . .

App.63a
MR. DAVIS: . . . also they—they were hit with the
federal statute for lying to a federal official, . . .
[...]
MR. DAVIS: . . . that doesn’t change the statute of limitations. . . .
[...]
MR. DAVIS: . . . the real reason they lost their contract
was the government of Liberia stepped in and
said, you are not competent to perform it. . . .
[...]
MR. FRIEDMAN: An investigator that we had hired at
the beginning of the case with Judge Lopez, a
year after—or two years after we tried the case
with Judge Lopez, had finally located documents
in Liberia that demonstrated that—the
commission agreements that were made with
these ministers that had awarded the contracts
to UTE.
[...]
MR. FRIEDMAN: Everything we asked for from ZTE,
they told us, “We don’t have it.” “We don’t know
where it is.” “It doesn’t exist.”
It existed. It all existed. We never got it.
Part of the reason we didn’t get it is because
there was an ongoing criminal investigation that
we didn’t know about, that they weren’t going to
give us documents about because they didn’t want
to be convicted criminally, and they weren’t
worried about this arbitration. They didn’t care
about a judgment in the arbitration. They were

App.64a
caring about criminal convictions that we didn’t
know was occurring.
We did subpoena Ashley Yablon. We did get Ashley
Yablon served. ZTE did send lawyers to the court,
and they argued sufficiently to quash that subpoena after Judge Lopez had given us that subpoena.
So Ashley Yablon was off the table. They did
everything they could to prevent us from getting
evidence to put on in hearing number one and
hearing number two.
[...]
MR. FRIEDMAN: . . . Justice Gonzalez says,
“Adverse inferences against respondents were not
warranted because claimant failed to prove that
respondents acted with subjective intent to conceal
or destroy discoverable evidence.”
[...]
THE COURT: Irrespective of all of that, they didn’t
get the bid. Your client got the bid.
MR. FRIEDMAN: Right.
THE COURT: And they fought it through the whole
system in Liberia, more than once, to where you
actually had a law that was passed to say that
you all had it.
MR. FRIEDMAN: Correct.
[...]
MR. FRIEDMAN: But they were able to go behind
UTE and take that contract away based on the
plans and specifications that they had presented

App.65a
to the Liberian Telecommunications Commission.
They couldn’t get the contract with nothing.
And the plans and specifications that they had
and that they presented to the Liberian Telecommunications Commission were identical—
not similar, they were identical from what they
took from UTE.
THE COURT: But that’s all known.
MR. FRIEDMAN: No. We weren’t able to proffer it. We
showed that they had taken all of UTE’s plans.
They had taken UTE’s confidential and proprietary information. They had copied everything
on Narasimha’s computer.
But ZTE claimed they had no documents. They had
no documents demonstrating anything they produced to the Liberian Telecommunications Commission. They had no communications with the
Liberian Telecommunications Commission. They
had no evidence of payments from the Liberian
Telecommunications Commission. They had no
invoices to the Liberian Telecommunications Commission.
So they made it nearly impossible for us to put
on the case we wanted to put on.
And it is beyond belief that the second largest
company—or the largest telecommunications
company in China keeps no records about a multihundred-million-dollar project that they are
engaged in and are still engaged in in Liberia. It
is beyond belief.
[...]

App.66a
MR. FAULKNER: . . . as to your question about prescription or limitations, ZTE was still shipping
equipment in violation of the attempted award of
the bid to UTE as recently as about six months
before the arbitration—before the litigation was
filed.
. . . as to what Justice Gonzalez could have seen,
had we been allowed to have full information, we
believe that legitimate access to their hard drives
and to their discovery would allow us to show
that they continue to be interrupting limitations
and prescription all the way up until a couple of
months before the suit was filed, . . .
[...]

App.67a

UNITED STATES OF AMERICA v. ZTE
CRIMINAL INFORMATION
(MARCH 7, 2017)
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
________________________
UNITED STATES OF AMERICA
v.
ZTE CORPORATION
________________________
No. 3-17CR-0120K
INFORMATION
The United States Attorney for the Northern
District of Texas charges:
COUNT ONE
Conspiracy to Unlawfully Export
(Violation of 50 U.S.C. § 1705; 31 C.F.R. Part 560;
15 C.F.R. § 764.2(a)-(e))
Beginning on or about January 1, 2010, and
continuing through on or about April 1, 2016, in the
Northern District of Texas, and elsewhere, the defendant, ZTE Corporation, did knowingly and willfully
conspire and agree with others known and unknown
to the United States to export, re-export, and transship,
and cause the export, re-export, and transshipment of
U.S. goods, specifically servers, switches, routers,

App.68a
and other component parts of a cellular network
infrastructure through China and to Iran without
having first obtained the required export license(s)
from the United States Department of the Treasury,
Office of Foreign Assets Control.
In violation of 50 U.S.C. § 1705; 31 C.F.R. Part
560; 15 C.F.R. § 764.2(a)-(e).
COUNT TWO
Obstruction of Justice
(Violation of 18 U.S.C. § 1503)
Beginning in or about November 2013, and
continuing through on or about April 1, 2016, in the
Northern District of Texas, and elsewhere, the
defendant, ZTE Corporation, did corruptly influence,
obstruct, and impede, and endeavor to influence,
obstruct, and impede the due and proper administration
of the law under which a grand jury investigation
was being held by (i) hiding data regarding its 20132016 sales to Iran, thereby causing ZTE Corporation’s defense counsel to unwittingly provide false information to attorneys for the Department of Justice
and federal law enforcement agents, and (ii) deleting
all communications related to this cover-up.
In violation of 18 U.S.C. § 1503.
COUNT THREE
False Statements to Federal. Investigators
(Violation of 18 U.S.C. § 1001)
On or about July 8, 2015, in the Northern District
of Texas, the defendant, ZTE Corporation, in a matter
within the jurisdiction of the executive branch of government, namely the United States Department of

App.69a
Justice’s Federal Bureau of Investigation, did knowingly
and willfully make a materially false, fictitious, and
fraudulent statement and representation, to wit, that
ZTE Corporation was complying with the laws and
regulations of the United States.
In violation of 18 U.S.C. § 1001.
NOTICE OF CRIMINAL FORFEITURE
Pursuant to 28 U.S.C. § 2461(c), and 18 U.S.C.
§ 981(a)(1)(C), the United States gives notice to the
defendant, ZTE Corporation, that upon conviction of
the violations charged in Count One, all property
which constitutes or is derived from proceeds traceable
to those violations is subject to forfeiture. The property subject to forfeiture includes, but is not limited
to, the following property:
$143,496,266 in United States Currency.
The defendant is notified that a money judgment for
$143,496,266 may be imposed against the defendant
and in favor of the United States.
Substitute Assets
In the event that the property subject to forfeiture
as a result of any act or omission of the defendant:
a.

cannot be located upon exercise of due diligence;

b.

has been placed beyond the jurisdiction of
the Court;

c.

has been transferred or sold to, or deposited
with a third party;

App.70a
d.

has been substantially diminished in value;
or

e.

has been commingled with other property
which cannot be divided without difficulty;

it is the intent of the United States to seek forfeiture
of any other property of the defendant up to the value
of such property pursuant to 18 U.S.C. § 982(b)(1),
incorporating 21 U.S.C. § 853(p).
Respectfully submitted,
John R. Parker
United States Attorney
/s/ J. Mark Penley
Assistant United States Attorney
Texas State Bar No. 15750700
1100 Commerce Street, Third Floor
Dallas, Texas 75242-1699
Telephone: 214.659.8619
Facsimile: 214.659.8805
E-mail: mark.penley@usdoj.gov
/s/ Elizabeth L. D. Cannon
Trial Attorney
National Security Division
U.S. Department of Justice

App.71a

UNITED STATES OF AMERICA v. ZTE
FACTUAL RESUME
(MARCH 6, 2017)
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
________________________
UNITED STATES OF AMERICA
v.
ZTE CORPORATION
________________________
No. 3-17CR-0120K
It is hereby agreed by and between ZTE Corporation (ZTEC), its attorneys, Clifford Chance LLP
and Burleson, Pate & Gibson LLP, and the United
States Attorney’s Office for the Northern District of
Texas and the United States Department of Justice,
National Security Division (collectively, the Department),
that the following is true, correct and can be used in
support of the defendant’s plea of guilty:

App.72a
ELEMENTS OF THE OFFENSE
COUNT ONE
Conspiracy to Unlawfully Export
(Violation of 50 U.S.C. § 1705, 31 C.F.R. Part 560;
and 15 C.F.R. Part 764.2(d))
In order to prove the offense of Unlawfully
Conspiring to Export, the government must prove each
of the following elements beyond a reasonable doubt:

First :

That two or more persons came to a mutual
understanding to try to accomplish a common
and unlawful plan, as charged in the Information;

Second :

That the Defendant, knowing the unlawful
purpose of the plan, willfully joined in it;

Third :

That the object of the unlawful plan was to
export and cause the export of U.S. origin
items from the United States to Iran without a license from the U.S. government.

COUNT TWO
Corruptly Obstructing the Administration of Justice
(Violation of 18 U.S.C. § 1503)
In order to prove the offense of Obstruction of
Proceedings before Departments, Agencies or Congress,
the government must prove each of the following
elements beyond a reasonable doubt:

App.73a

First:

That on or about the dates in the Information, there was a proceeding pending before
a grand jury;

Second:

That the defendant knew of the pending
proceeding; and

Third:

That the defendant acted corruptly with
the specific intent to influence, obstruct, or
impede that judicial proceeding in its due
administration of justice.

COUNT THREE
False Statement to a Federal Agency
(Violation of 18 U.S.C. § 1001)
In order to prove the offense of False Statement
to a Federal Agency, as alleged in Count Three of the
Information, the government must prove each of the
following elements beyond a reasonable doubt:

First:

That the defendant made a false statement
to an agency or department of the United
States Government;

Second:

That the defendant made the statement
intentionally and willfully, knowing that it
was false;

Third:

That the statement was material; and

App.74a

Fourth:

That the defendant made the false statement
for the purpose of misleading the agency or
department of the United States Government.
STIPULATED FACTS
Introduction

1. This Factual Statement is made pursuant to,
and is part of, the Plea Agreement dated _____,
between the United States Attorney’s Office for the
Northern District of Texas and the National Security
Division of the United States Department of Justice
(collectively, “DOJ”) and the defendant, ZTE Corporation (“ZTEC”). If this case were to go to trial, the
government would be prepared to prove the following, and the Defendant now admits the following facts
are true and correct:
2. ZTEC is the largest publicly-traded telecommunications manufacturer in the People’s Republic of
China (PRC), and the fourth largest telecommunications manufacturer in the world. ZTEC products are
manufactured in Shenzhen, PRC, and sold to customers globally. ZTEC has subsidiaries located all over
the world, including the United States.
3. Starting in January 2010, and continuing
through March 2016 (the “relevant time period”), ZTEC
violated U.S. law by causing the export of goods from
the United States to the Islamic Republic of Iran
(Iran) in violation of U.S. economic sanctions. ZTEC’s
most senior managers constructed an elaborate scheme
to evade detection by U.S. authorities. The company,
along with its co-conspirators, including ZTE Parsian,

App.75a
Beijing 8 Star, Chinese Company A, Iran Company A,
and Iran Company B, purchased U.S.-origin parts and
then transshipped, exported, or reexported those parts,
either as a component of a larger system or separately,
from China to Iran without a license from the
Department of Treasury’s Office of Foreign Assets
Control (“OFAC”). During the course of the conspiracy,
ZTE Parsian and Beijing 8 Star acted as alter egos of
ZTEC.
4. During the relevant time period, ZTEC was
incorporated and headquartered in Shenzhen, China.
It maintained a U.S. subsidiary, ZTE USA, located in
Richardson, Texas, and a subsidiary in Tehran, Iran,
ZTE Parsian. Its shares are listed on the Shenzhen
and Hong Kong Stock Exchanges.
5. Beijing 8 Star Co. International (“8S”) was
registered in China in 2009 as a trading company. It
was incorporated by two ZTEC employees as a side
business for those employees and originally was not
part of ZTEC. As described in greater detail below,
beginning in 2010, ZTEC identified 8S as a possible
vehicle for hiding its shipments of U.S.-origin items
to Iran. It intended to use 8S to export U.S.-origin
items from China to ZTEC customers in Iran. As part
of this plan, ZTEC supplied 8S with necessary capital
and took over control of the company.
6. Chinese Company A (“CCA”) was registered in
the PRC in 1990. Its principal place of business is in
Jiangsu, China. It is a large manufacturer and its
parent company is listed on the Shanghai Stock
Exchange. Beginning in 2014, CCA began exporting
U.S.-origin items from China to Iran on behalf of
ZTEC.

App.76a
7. During the relevant time period, neither ZTEC,
nor 8S, nor CCA applied for or obtained an export
license from OFAC for the U.S.-origin items they
shipped, to Iran.
Applicable Law
The International Emergency Economic Powers Act
8. The International Emergency Economic Powers
Act (“IEEPA”), 50 U.S.C. § 1701 et seq., gave the
President of the United States broad authority to
regulate exports and other international transactions
in times of national emergency. IEEPA controls are
triggered by an Executive Order declaring a national
emergency based on an “unusual and extraordinary
threat, which has its source in whole or substantial
part outside the United States, to the national security,
foreign policy, or economy of the United States.” Pursuant to the authority under IEEPA, the President and
the executive branch have issued orders and regulations governing and prohibiting certain practices
and transactions with respect to various sanctioned
nations by U.S. persons or involving U.S.-origin goods.
9. It is a crime for a person to willfully commit,
willfully attempt to commit, willfully conspire to
commit, or willfully cause a violation of any license,
order, regulation, or prohibition issued under IEEPA,
50 U.S.C. § 1705.
Iranian Transactions and Sanctions Regulations
10. On March 15, 1995, the President issued Executive Order 12957, finding that “the actions and
policies of the Government of Iran constitute an
unusual and . . . .

App.77a
[...]
18. Exporters and reexporters are not required
under the EAR to seek authorization from both the
Commerce Department and OFAC for exports or
reexports subject to both the EAR and the ITSR.
Instead, an authorization granted by OFAC is
considered authorization for purposes of the EAR
as well.
Illegal Transactions with Iran, Pre-March 2012
19. In or around early 2010, ZTEC began bidding
on two different Iranian projects. One was with Iran
Company A (ICA), the other with Iran Company B
(ICB). Each contract was worth hundreds of millions
of U.S. Dollars (USD) and required U.S.-origin components—both controlled and EAR 99 commodities—for
use in the final products.
Iran Company a Contract
20. ICA is a telecommunications company located
in Tehran, Iran. It has a monopoly over Iran’s fixed
line infrastructure, and until 2010 was Iran’s largest
cellular operator, Internet service provider, and data
communication operator.
21. On or about February 23, 2010, ICA and
ZTEC reached an initial agreement in which ZTEC
would provide equipment to ICA to expand the existing
telecommunication networks in Iran within three years.
22. On or about December 28, 2010, the parties
finalized and signed a supply contract. The contract
is signed by four parties: ICA (signed for by its Vice
Chairman and Managing Director), ZTEC (signed for
by its Commercial Manager), 8S (signed for by its

App.78a
Manager), and ZTE Parsian (signed for by its Managing
Director). According to the contract, ZTEC agreed to
supply the “self-developed equipment” to ICA, collect
payment for the project, and manage the whole
network. 8S was responsible for “relevant third-party
equipment,” which primarily meant parts that would
be subject to U.S. export laws. ZTE Parsian was to
provide locally purchased materials and all services.
The ICA project is described as a “network optimization”
and required several pieces of network equipment,
including Internet Protocol multimedia systems, Next
Generation Network, Switches, Optical Access, digital
subscriber line access multiplexers (DSLAM), Routers,
LAN Switches, Transmissions, Terminals, Value Added
Service, Internet Protocol Televisions, Core networks,
2G/3G/LTE BTS, and operational support systems. It
also included a law enforcement surveillance function
and accompanying software, the ZTEC-manufactured
ZXMT system.
23. According to the terms of the contract, the
contract was to remain valid until December 31, 2015.
The contract price was €98,639,361 (equivalent to
approximately $129,584,000). The original contract
was subsequently modified in two amendments. The
first amendment increased the value of the contract
to approximately $160 million. The final amendment
decreased the amount of ZTEC-manufactured parts
to be included and increased the number of U.S.origin items to be included, without changing the
value of the contract.
24. ZTEC was well aware that it required U.S.origin component parts to fulfill its contract with
ICA. It was also aware that U.S. export laws prohibited
ZTEC from transshipping or reexporting U.S.-origin

App.79a
component parts to Iran without a license from the
U.S. government, and that it was highly unlikely that
the U.S. government would grant such a license . . . .
Consequently, ZTEC intended for 8S to be an “isolation . . .
[...]
32. The contract—called a “framework agreement” between ZTEC and ICB was signed November
22, 2010. The framework agreement states that ICB
was to create and operate the first 2G/3G and 4G
ready private mobile telecommunications network in
Iran. The framework agreement was valued at
€1,450,000,000 (approximately $1,986,355,000). ZTEC
was awarded a piece of the overall framework
agreement, and was to supply ICB with the equipment
and services necessary to set up 1000 cell tower sites
around Iran. The agreement between ZTEC and ICB
was signed by the Chairman of ICB; the Commercial
Manager for ZTEC; the Manager of 8S; and the
Managing Director of ZTE Parsian.
33. As with the ICA contract, ZTEC was responsible for, among other things, providing the necessary
“self-developed products.” 8S’s responsibilities included
providing U.S.-origin equipment. ZTE Parsian was to
provide services and locally made equipment for the
project.
34. 8S was intended to play the same “isolation”
role that it was intended to have in the ICA contract.
It was supposed to sign a purchasing contract with
ZTE Kangxun, which is ZTEC’s international
procurement aim. ZTE Kangxun would serve as a
purchasing agent for 8S, buying the embargoed goods
from the United States and reselling them to 8S. 8S

App.80a
was then responsible for exporting those goods from
China to Iran.
35. As with the ICA contract, however, 8S’s lack
of business reputation made it a poor choice to serve
as the isolation company, and ZTEC itself wound up
shipping the U.S.-origin items from China to Iran.
36. ICB issued the first purchase order for ZTEC
on or about December 26, 2010, which specified 1,002
radio access network (“RAN”) sites ZTEC would
manufacture and install for ICB. The total price for
the purchase order, after a discount, was approximately
$165,000,000. In May 2011, ICB and ZTEC modified
the purchase order. Instead of supplying equipment
for 1000 sites, ZTEC would manufacture and install
equipment for only 500 sites. That number was further
decreased in March 2012 to 150 RAN sites and again
in April 2012 to 130 RAN sites. Though the number
of sites decreased, the U.S. dollar value of the purchase
order remained the same at approximately $165,000,000.
37. From January 2010 through December 2012,
ZTEC sent approximately 20 shipments to ICB. The
total cost incurred by ZTEC for the items it shipped
to ICB was approximately $25.4 million, and the total
cost of the U.S.-origin items was approximately $11.8
million (see Appendix C). The items included various
component parts from U.S. manufacturers. The shipments also included numerous products that were on
the CCL and thus controlled (see Appendix D, listing
the pertinent ECCNs for controlled products shipped
under the ICB contract).
38. The U.S.-origin items that ZTEC shipped to
ICB in Iran were procured by ZTEC in the same
manner as those sent to ICA—as part of bulk orders

App.81a
from its suppliers, which ZTEC placed monthly or
weekly depending on its global needs. When ZTEC
purchased the U.S.-origin items, it did so knowing
that some number of each U.S.-origin item would be
sent to Iran pursuant to the Iranian contracts, either
as a component part of a larger ZTEC system or shipped
separately.
39. Neither ZTEC, nor ICB, nor 8S ever sought
or obtained licenses from OFAC to transship or reexport
these U.S.-origin items to Iran, though they knew at
the time that licenses were required.
Changing the Structure
40. In early 2011, ZTEC determined that the use
of 8S was insufficient to hide ZTEC’s connection to
the export of U.S.-origin goods to Iran. Senior management of ZTEC ordered that a company-level export
control project team study, handle, and respond to the
company’s export control risks. By September 2, 2011,
four senior managers had signed a proposal addressing
these issues. Among the primary goals established by
the proposal was to identify and establish new
isolation companies (also described as “cut-off companies”), which would be responsible for supplying
U.S. component parts necessary for projects in
embargoed countries. The isolation companies would
conceal ZTEC’s role in the scheme and would insulate
ZTEC from export control risks. The document was
signed by the ZTEC General Counsel; Executive Vice
President for Sales; Executive Vice President of
Logistics; and ZTEC CEO.
41. Among other things, the document states:

App.82a
At present, the biggest risk is Iran’s ongoing
project(s). . . . [I]n 2010, the U.S. passed the
“Comprehensive Iran Sanctions, Accountability, and Divestment Act,” applying stronger
sanctions against Iran. At the end of 2010,
our company signed a four-party project
contract with Iran customer(s), adopting
semi cut-off method, i.e. our company provides our self-manufactured equipments [sic]
to the customer(s) and our company’s
cooperating company provides sensitive U.S.
procured items to the customer(s). . . . Since
the capital credit and capability of our company’s cooperating company are weak, the
project execution is more difficult. Therefore,
currently most of the operations are actually done by ZTE Corporation; the risk cutoff is not effective.
42. This proposal also stated that ZTEC had been
sending U.S.-origin parts to numerous sanctioned
countries, such as Iran, Sudan, North Korea, Syria
and Cuba, without the necessary licenses from the
U.S. government.

Reuters Article and Decision to Resume Shipments
to Iran

43. In or about March 2012, Reuters published
an article detailing ZTEC’s sale of equipment to ICA,
and it highlighted the ZXMT surveillance system. The
article stated that the ZXMT system contained U.S.origin component parts. In response, the Department
of Commerce, BIS, served ZTE USA with an administrative subpoena, asking for the ICA contract and
packing list mentioned in the article. The U.S. Attor-

App.83a
ney’s office for the Northern District of Texas subsequently opened its grand jury investigation and the
FBI served ZTE USA with criminal subpoenas as
detailed below.
44. In response to the article and investigations,
ZTEC shipped back to China from Iran several U.S.origin items that ZTEC had shipped to ICA. It did
not return any U.S. equipment that it had shipped to
ICB. In the summer of 2012, ZTEC made a decision to
temporarily cease sending new U.S. equipment to Iran.
45. Beginning in or around mid-2013, however,
ZTE Parsian began urging ZTEC to resume business
with ZTEC’s Iranian customers. The ZTE Parsian sales
team in Iran invited a small group of ZTEC executives
to Tehran to have ZTEC better understand the pressure
the Iran office was under from ZTEC’s Iranian
customers. Following that visit, senior management
at ZTEC, including the CEO and Executive Vice
Presidents, decided to resume business with the Iranian
customers. ZTEC feared they would be subject to
penalty provisions in their Iranian contracts. Also of
concern was maintaining their bank performance
guarantees. By November 2013, ZTEC had resumed its
business with Iran, and beginning in July 2014, ZTEC
began shipping U.S.-origin parts to Iran once again
without the necessary licenses.
Identifying Other Isolation Companies
46. Given the weaknesses associated with 8S and
the proposal signed by senior management in September 2011, ZTEC sought out and identified other
intermediary companies that would be better able to
obfuscate ZTEC’s role in the illegal exports.

App.84a
47. ZTEC established a committee in 2013 to
identify and evaluate possible options. The committee
used various criteria to analyze the options, including
the candidate company’s (1) sales volume, (2) willingness to cooperate with ZTE, (3) size, and (4) cost.
Ultimately, ZTEC identified CCA.
48. CCA was utilized mostly for shipments related
to the ICA and ICB contracts, between 2013 and 2016.
As described above, CCA is a large manufacturer in
China. Its parent company is listed on the Shanghai
Stock Exchange. In 2013, CCA was looking to expand
and had an established import/export business that
ZTEC could leverage.
49. On or around December 2, 2013, ZTEC and
CCA signed a framework agreement. The scope of work
described in the agreement was for a period of three
years, with an option to renew for an additional year.
The contract value was approximately $163,000,000.
ZTEC was identified in the agreement as the seller,
with CCA as the buyer. According to the terms of the
agreement, the seller would notify the buyer when
the goods were ready. The buyer was then responsible
for collecting the goods from the seller. A provision in
the agreement admonished the CCA to follow all export
laws, including those of the United States.
50. CCA was fully aware of the U.S. government’s
investigation into ZTEC’s shipments to Iran. The
primary purpose of the contract was for CCA to obtain
products from ZTEC and export them to the Iranian
customer. The agreement, though, says nothing about
ICA, ICB, or Iran. It was signed by the CEO of CCA
and the Commercial Manager for ZTE Parsian. The
ZTEC Chairman had authorized the Commercial
Manager to sign on behalf of ZTEC.

App.85a
51. CCA, in turn, signed contracts with ICA and
ICB. The ICA contract was signed in or around February 2014. It stated that ICA would purchase from
CCA the telecommunications items for various Iranian
provinces according to three purchase orders totaling
approximately $95,169,000.
52. Under the plan, CCA placed purchase orders
with ZTEC for all parts ordered by ICA—both U.S.origin items and ZTEC-manufactured items. ZTEC then
purchased or manufactured the requisite items, which
CCA picked up from ZTEC’s warehouse. CCA then
shipped all of the items to ICA. ZTEC stripped its
logo off of all communications with ICA and all items
shipped to ICA.
53. Between January 2014 and January 2016,
ZTEC prepared 10 shipments for CCA that included
U.S.-origin items, knowing and intending that CCA
would then ship those items to ICA in Iran (see
Appendix A). The total cost incurred by ZTEC of the
items shipped to ICA was approximately $13.7 million
dollars, including approximately $6.3 million worth
of U.S.-origin items. The shipments included U.S.
cellular-network parts from various U.S. companies.
The last date that goods left the ZTEC warehouse for
CCA destined for ICA was on or about January 20,
2016. Neither ZTEC, nor CCA, nor ICA applied for or
received the necessary export licenses from the U.S.
government.
54. ZTEC and CCA established the same system
for sales to ICB. On or about March 19, 2014, ICB
and CCA signed a contract worth approximately
$100,154,880. The stated contract term was three years.
The ICB contract called for the installation of 553
cell sites. Additional items were to be delivered to

App.86a
ICB’s warehouse in Iran. To fulfill the contract, CCA
placed purchase orders with ZTEC. As with the ICA
contract, ZTEC purchased or manufactured all relevant equipment—both U.S.-manufactured and ZTECmanufactured—and prepared them for pick-up at its
warehouse by CCA.
55. Between July 2014 and January 2016, ZTEC
prepared 24 shipments for CCA, knowing and intending
that CCA would then ship those items to ICB in Iran
(see Appendix C). The cost incurred by ZTEC of the
items shipped in these shipments was approximately
$11.1 million, including approximately $2.7 million of
U.S.-origin items. The shipments included U.S. cellularnetwork parts from various U.S. companies. The last
date that goods left the ZTEC warehouse for. CCA
destined for ICB was on or about January 29, 2016.
Neither ZTEC, nor CCA, nor ICB applied for or received
the necessary export licenses from the U.S. government.
56. Between January 2010 through January
2016, ZTEC, either directly or indirectly through 8S
and CCA, shipped approximately $32.2 million of U.S.origin items to Iran without obtaining the proper
export licenses from the U.S. government.
Obstructing the United States Government Investigation
57. As mentioned above, the FBI began its
investigation into ZTEC shortly after the. Reuters
article was published. The FBI served a seizure warrant
on ZTE USA on or about July 20, 2012, for a laptop
the FBI had already imaged and returned. On or about
August 13, 2012, the FBI served the first grand jury
subpoena on ZTE USA for documents and records
related to all sales to Iran. The FBI served two addi-

App.87a
tional subpoenas for documents and records on the
company and its outside counsel on or about September 17, 2012, and January 27, 2015. In addition, on or
about October 4, 2014, October 17, 2014, and November 12, 2014, the FBI conducted searches of various
ZTE USA offices. Law enforcement agents also served
subpoenas to appear before the grand jury on several
senior ZTE USA and ZTEC managers during 2013
and 2014.
58. Despite its knowledge of the ongoing grand
jury investigation, ZTEC took several steps to conceal
relevant information from the U.S. government and,
moreover, took affirmative steps to mislead the U.S.
government.
59. In the summer of 2012, ZTEC asked each of
the employees who were involved in the Iran sales to
sign nondisclosure agreements in which the employees
agreed to keep confidential all information related to
the company’s exports to Iran.
60. During meetings on or about August 26, 2014,
December 2, 2014, November 20, 2015, December 21,
2015, January 8, 2016, and March 18, 2016, defense
counsel for ZTEC, unaware that the statements
ZTEC had given to counsel for communication to the
government were false, represented to the Department
of Justice and federal law enforcement agents that
the company had stopped doing business with Iran,
and therefore was no longer violating U.S. export
controls and sanctions laws. In advance of defense
counsel’s meetings with the U.S. government, senior
managers at ZTEC had reviewed the statements made
by defense counsel and approved them, knowing then
and there that the statements were false.

App.88a
61. Similarly, on July 8, 2015, in-house counsel
for ZTEC accompanied outside counsel in a meeting
with the Department of Justice and federal law
enforcement agents and reported that ZTEC was
complying with the regulations and laws of the United
States. That statement was false.
62. Additionally, ZTEC, pursuant to defense
counsel’s request, hired an outside thin (“Forensic
Accounting Firm”) to review ZTEC’s computer systems
and identify information related to Iran sales. During
the years 2013-2016, the Forensic Accounting Firm
conducted an ongoing review of ZTEC’s data and
systems and provided an analysis of ZTEC’s sales to
Iran. The dollar figures and shipping information
identified in the analysis conducted by the Forensic
Accounting Firm were presented by defense counsel
to the U.S. government on several occasions. ZTEC
was aware of why the Forensic Accounting Firm was
reviewing its systems and knew that the analysis was
being reported to the Department of Justice and U.S.
law enforcement. ZTEC was also aware that the government had been seeking the sort of information the
Forensic Accounting Firm was gathering and that the
government would likely present such information to
the grand jury.
63. On or about April 6, 2016, defense counsel,
at the direction of ZTEC, advised attorneys for the
Department of Justice that ZTEC senior management
had lied to defense counsel and, consequently, to
the U.S. government in the meetings at which defense
counsel had made factual representations to the
government. To avoid detection of its 2013-2016
resumed sales to Iran, ZTEC had taken steps to hide

App.89a
data related to those transactions in its computer
systems from the Forensic Accounting Firm.
64. In January 2016, when defense counsel asked
that the Forensic Accounting Firm be given greater
access to all of ZTEC’s systems to finalize the internal
investigation for purposes of providing information to
the U.S. government, ZTEC’s then-CEO advised three
senior managers that the IT department needed to hide
all information related to the post-March 2012 Iran
business from the Forensic Accountant Firm.
65. To accomplish this, ZTEC formed the “contract data induction team” (“CDIT”). The team was
comprised of approximately 13 people whose job it
was to “sanitize the databases” of all information
related to the 2013-2016 Iran business. The team
identified and removed from the databases all data
related to those sales.
66. In addition, ZTEC established an auto-delete
function for the email accounts of those 13 individuals
on the CDIT, so their emails were deleted every night—
a departure from its normal practices to ensure there
were no communications related to the hiding of the
data. The members of the CDIT also signed nondisclosure agreements agreeing not to share information
about the CDIT or suffer a 1 million RMB penalty.
67. As a result, when defense counsel presented
what was supposed to be final information about
ZTEC’s sales to Iran to the U.S. government on or
about January 8, 2016, and March 18, 2016, the
numbers defense counsel presented were false. Senior
managers at ZTE had reviewed the numbers before
defense counsel presented them and approved them,
knowing then and there that those numbers were false.

App.90a
68. Because ZTEC and ZTEC senior managers
created an elaborate system to hide the 2013-2016
Iran data, authorized the false information that ZTEC
defense counsel unwittingly provided to attorneys for
the Department of Justice and federal law enforcement agents, and took steps to delete all communications related to this cover-up, the company
obstructed the due administration of justice.
AGREED TO AND SIGNED this 6th day of March
2017.
Respectfully submitted,
John R. Parker
United States Attorney
/s/ Zhao Xianming
Chairman and President of
ZTE Corporation
/s/ Wendy L. Wysong
Attorney for Defendant
/s/ J. Mark Penley
Assistant U.S. Attorney
/s/ Gary C. Tromblay
Deputy Criminal Chief

App.91a
/s/ Lisa J. Dunn
Criminal Chief
/s/ Elizabeth L. D. Cannon
Trial Attorney
National Security Division

